<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                        WEDNESDAY, MARCH 4, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:40 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Murkowski, and Feinstein.

                   U.S. NUCLEAR REGULATORY COMMISSION

STATEMENT OF STEPHEN G. BURNS, CHAIRMAN


              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
Development will please come to order. This afternoon we are 
having a hearing to review the President's fiscal year 2016 
funding request and budget justification for the Nuclear 
Regulatory Commission. Senator Feinstein and I will each have 
an opening statement, and then each Senator may have up to 5 
minutes for an opening statement, alternating between the 
majority and minority. Some Senators are fleeing before the 
snow comes, so I do not know how many will be here, but we are 
here. We will then turn to the witnesses for their testimony. 
We are glad to have so many of you here, and this is really an 
opportunity for us have to have a good discussion about nuclear 
power, the Nuclear Regulatory Commission.
    I would like to thank our witnesses and introduce them in 
this way. Mr. Stephen Burns is chairman of the U.S. Nuclear 
Regulatory Commission. Mr. Chairman, welcome. Kristine 
Svinicki, good to see you again. Thank you for being here. Mr. 
William Ostendorff, good to see you again, Commissioner. Thank 
you for coming, Commissioner. Mr. Jeff Baran, welcome to the 
hearing, also a member of the Commission, the Nuclear 
Regulatory Commission.
    We are here today to review the 2016 budget request for the 
Nuclear Regulatory Commission, which is an independent agency 
responsible for regulating the safety of our Nation's 
commercial nuclear power plants and other nuclear materials. It 
is the first time in a few years the subcommittee has had a 
hearing to examine the Commission's budget. It is also the 
first of several hearings that the subcommittee will hold this 
year on nuclear power. These hearings are important because 
nuclear power provides about 20 percent of our Nation's 
electricity and more than 60 percent of our carbon-free 
electricity, and I will have more to say about all that as we 
go along.
    I plan to focus my questions on four main areas: licensing 
nuclear waste repositories, which is a passion of Senator 
Feinstein as well as mine; number two, avoiding excessive 
regulation; number three, licensing for new and existing 
reactors; number four, making sure the Agency is running 
effectively.
    First on waste, we have to solve the 25-year stalemate 
about what to do with used fuels from our 99 nuclear reactors, 
as well as fuel from some that have already stopped operating. 
We have to have a place to put the used fuel in order to ensure 
that nuclear power has a strong future in this country. Later 
this year, I look forward to reintroducing with Senator 
Feinstein, and Senator Murkowski, and perhaps others, 
legislation that would create temporary and permanent storage 
sites for nuclear waste. Also, Senator Feinstein and I plan to 
again include a pilot program for nuclear waste storage in the 
water and appropriations bill as we have for the past 3 years. 
Her idea, I strongly support it.
    The new sites we would seek to establish through the 
legislation that we are reintroducing would not take the place 
of Yucca Mountain--we have more than enough waste to fill Yucca 
Mountain to its legal capacity--but would rather complement it. 
The legislation is consistent with the President's Blue Ribbon 
Commission on America's Nuclear Future, but my own view is that 
Yucca Mountain can and should be part of the solution. Federal 
law designates Yucca Mountain as the Nation's repository for 
used nuclear fuel. The Nuclear Waste Fund, which is money that 
utilities have paid the government to dispose of their used 
nuclear fuel, has a balance of about $36 billion, and there are 
still several steps to go in the licensing process for Yucca 
Mountain.
    The Nuclear Regulatory Commission has a balance of unspent 
funding that should be used to continue the licensing process. 
More resources will be required, so I think it is fair to ask 
why are those funds not requested in your budget. The Nuclear 
Regulatory Commission recently completed the safety evaluation 
report that said Yucca Mountain met all of the safety 
requirements through the ``period of geologic stability.'' The 
Commission and the Environmental Protection Agency define the 
``period of geologic stability'' as 1 million years. To 
continue to oppose Yucca Mountain because of radiation concerns 
is to ignore science as well as the law.
    The next steps on Yucca Mountain include completing a 
supplemental environmental impact statement and restarting the 
hearings before the Atomic Safety and Licensing Board, which 
were suspended in September 2011. Money is available for these 
activities, and I would like to hear about your plans to use 
it.
    The second area of questioning is avoiding excessive 
regulation. A couple of years ago, Senator Mikulski and I, and 
Senator Burr, and Senator Bennett asked a group of 
distinguished higher education officials to look at the Federal 
rules and regulations governing higher education. They made 
their report a couple of weeks ago, and it was a startling 
report. And there are some--I would like for Senator Feinstein 
to hear this part because California has a terrific system of 
universities.
    The commission that Senator Mikulski and I, and Bennett, 
and Burr commissioned on regulation of higher education 
reported about what they called a jungle of red tape that is 
interfering with their ability to govern properly. Vanderbilt 
University hired the Boston Consulting Group to assess how much 
it cost Vanderbilt itself to comply with all the Federal rules 
and regulations on higher education in 2014. And the answer was 
$150 million, which is 11 percent of the university's operating 
revenue or expenditures, and adds $11,000 to each student's 
tuition.
    Now, you may wonder what does that have to do with nuclear 
power. It is the same kind of thing all throughout the 
government. None of these rules and regulations, or almost 
none, are put in by evil people, or intentioned. They just add 
up over time. And to the extent excessive regulation makes it 
more difficult for nuclear power plants to be extended and to 
be operated economically, that is something I would like to 
discuss. I wonder whether, for example, we know the answer to 
the question how much does it cost a utility. How much does 
regulation cost a utility for its operation?
    Then there is the question of the licensing of new and 
existing reactors. I proposed one time that we should build a 
hundred new reactors. People thought that was kind of over the 
top. But when you stop and think about it, we have the Center 
for Strategic and International Studies saying that by 2020, 
not long away, that as many as 25 of our 99 reactors may not be 
operating. We have the various factors that are making it less 
economic to operate nuclear reactors, such as the low price of 
natural gas, the subsidies for wind power, which permit wind 
producers in unregulated markets to basically pay the merchant 
utility to take the wind power, and then the producer can still 
make a profit. That means the nuclear power is less economic. 
Excessive regulation may be a factor. Carbon rules from the EPA 
that treat nuclear differently than other renewable sources may 
be a factor.
    And then we think about the fact that if about 20 percent 
of our current capacity from coal goes offline by 2020 as 
projected by the Energy Information Administration or is 
entirely replaced by nuclear power, it would require building 
another 48 new large reactors. So add to that, the third point, 
which are the number of aging reactors, those that are getting 
too old and which may not have their licenses extended. We 
might need a hundred new reactors just to replace the ones we 
already have, and I want to make sure that we do not end up 
surprised by that.
    Then we want to make sure that agencies run effectively. 
Congress appropriated in the year 2000 about $470 million for 
the Agency. The budget this year is $1 billion. Much of the 
increase was due to the significant number of new reactor 
licenses that were anticipated. However, most were never 
actually submitted, so it is fair to ask whether this 
additional funding is being used for unnecessary regulation.
    Finally, let me just make this observation, and I will ask 
Senator Feinstein then to take whatever time she would like. I 
do not want the United States of America 10, 20, 30 years from 
now to suddenly wake up and discover that we are a country 
without nuclear power, and I think it is possible that could 
happen. If CSIS says we may lose 25 reactors within the next 5 
or 6 years, and big utility operators tell me they are not even 
thinking about asking for extensions of the time their reactors 
might stay online, say, from 60 to 80 years, because it is not 
economic to operate them, if we suddenly find ourselves without 
most of the 99 reactors we have, we know what will happen. We 
have seen what happened in Japan. We have seen what happened in 
Germany. And at a time when the President and many in America 
feel that climate change is an urgent challenge for the world 
and our country, the idea of deliberately allowing the 99 
reactors which produce 60 percent of our carbon free emissions, 
to allow that number to decline I think would be serious 
malpractice by all of us involved, whether it is the Congress, 
whether it is the Commission, whether it is the Department of 
Energy.
    So it is with that spirit that I am going to be approaching 
this hearing and other hearings this year. I know that the 
Regulatory Commission is not the Department of Energy. Its job 
is safety, and it has a terrific record in that. I do not think 
and I am sure it is true--any other form of energy production 
in our country has a record of safety that exceeds nuclear 
power. But I am going to be asking questions about what can you 
also do to create an environment so that over the next 30 or 40 
years at least, while we are doing research to find other sorts 
of clean energy, that we do not find ourselves without large 
amounts of renewable emissions and free electricity, which is 
what Japan suddenly found, and which Germany has found. And it 
does not work in a big manufacturing country given the current 
mix of power generation.
    So I welcome the commissioners. I thank you for your 
service, and I look forward to Senator Feinstein's comments.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    We're here today to review the President's fiscal year 2016 budget 
request for the Nuclear Regulatory Commission, the independent Federal 
agency responsible for regulating the safety of our Nation's commercial 
nuclear power plants and other nuclear materials.
    This is the first time in many years that the subcommittee has held 
a hearing to examine the Nuclear Regulatory Commission's budget.
    It is also the first of several hearings that the subcommittee will 
hold this year on nuclear power. These hearings are important because 
nuclear power provides about 20 percent of our Nation's electricity and 
more than 60 percent of our carbon-free electricity.
    I plan to focus my questions today on four main areas:
      1. Licensing nuclear waste repositories;
      2. Avoiding excessive regulations;
      3. Licensing for new and existing reactors; and
      4. Making sure the agency is running effectively.
     licensing nuclear waste repositories, including yucca mountain
    First, we must solve the 25-year-old stalemate about what to do 
with used fuel from our nuclear reactors to ensure that nuclear power 
has a strong future in this country.
    Later this year, I will reintroduce bipartisan legislation with 
Senators Feinstein, Murkowski and perhaps others, to create both 
temporary and permanent storage sites for nuclear waste. Also, Senator 
Feinstein and I plan to include a pilot program for nuclear waste 
storage in the Energy and Water appropriations bill, as we have for the 
past 3 years.
    The new sites we'd seek to establish through the legislation 
Senator Feinstein and I are reintroducing this year would not take the 
place of Yucca Mountain--we have more than enough waste to fill Yucca 
Mountain to its legal capacity--but rather would complement it.
    This legislation is consistent with the president's Blue Ribbon 
Commission on America's Nuclear Future.
    But let me be clear: Yucca Mountain can and should be part of the 
solution. Federal law designates Yucca Mountain as the Nation's 
repository for used nuclear fuel.
    The Nuclear Waste Fund, which is money that utilities have paid the 
government to dispose of their used nuclear fuel, has a balance of 
about $36 billion and there are still several steps to go in the 
licensing process for Yucca Mountain.
    The Nuclear Regulatory Commission has a balance of unspent funding 
that you are supposed to use to continue the licensing process. But 
more resources will be required, so I think it's fair to ask the 
question:
    Knowing that there are additional steps and they will cost money, 
why would you not request additional funds in your budget?
    The Nuclear Regulatory Commission recently completed the Safety 
Evaluation Report that said Yucca Mountain met all of the safety 
requirements through ``the period of geologic stability.''
    The commission and the Environmental Protection Agency define the 
``period of geologic stability'' as one million years. To continue to 
oppose Yucca Mountain because of radiation concerns is to ignore 
science--as well as the law.
    The next steps on Yucca Mountain include completing a supplemental 
environmental impact statement and restarting the hearings before the 
Atomic Safety and Licensing Board, which were suspended in September 
2011.
    Money is available for these activities, and I want to hear why 
there is no request to use it.
                     avoiding excessive regulations
    Federal law requires that nuclear power plants be built safely, but 
the law doesn't say it should be so hard and expensive to build and 
operate reactors that you can't do it.
    A 2013 report by the Center for Strategic and International Studies 
found that up to 25 of our 99 nuclear reactors could close by 2020.
    The decision to close a reactor could be due to a number of 
factors, including the low price of natural gas, and the wasteful wind 
production tax credit, which is so generous that in some markets wind 
producers can literally give their electricity away and still make a 
profit.
    But the decision to close a reactor can also have to do with 
excessive and unnecessary regulations. I want to work with the 
commission to address this.
                licensing for new and existing reactors
    Over the next several decades, most of our 99 nuclear reactors will 
go through the commission's license renewal process to extend their 
licenses, which is critical to the future of nuclear power. I want to 
make sure that the commission is prepared for this additional work.
    I also want to make sure the commission has devoted the appropriate 
resources to the licensing process to keep new reactors--like Watts Bar 
2 in Tennessee--on time and on budget.
    I have proposed that we build 100 new reactors, which may seem 
excessive, but not if about 20 percent of our current capacity from 
coal goes offline by 2020 as projected by the Energy Information 
Administration. If this capacity were replaced entirely by nuclear 
power it would require building another 48 new, 1,250-megawatt 
reactors--which, by the way, would reduce our carbon emissions from 
electricity by another 14 percent. Add the reactors we may need to 
replace in the coming decades due to aging and other factors, and my 
proposal for 100 may not seem so high.
    Additionally, the commission needs to move forward with new small 
modular reactors.
    This subcommittee has provided funding to help small modular 
reactors get through the Nuclear Regulatory Commission's licensing 
process. I'd like to get your views on what you need to continue your 
efforts.
             making sure the agency is running effectively
    One of the challenges for the Nuclear Regulatory Commission is to 
ensure that the agency is running effectively and focusing staff on the 
right goals.
    In fiscal year 2000, Congress appropriated about $470 million for 
the Nuclear Regulatory Commission. The budget request this year is more 
than $1 billion.
    Much of the increase was due to the significant number of new 
reactor licenses that were anticipated--however most were never 
actually submitted. So, it is fair to ask whether this additional 
funding is being used for unnecessary regulation.
                               conclusion
    The best way to understand the importance of nuclear power is to 
look at the stories of three countries: Japan, Germany and the United 
Arab Emirates.
    Japan and Germany have recently experienced what happens when a 
major manufacturing country loses its nuclear capacity. In Japan, the 
cost of generating electricity has increased 56 percent and Germany has 
among the highest household electricity rates in the European Union--
both because they moved away from nuclear power.
    The United Arab Emirates has shown what a country can do when a 
country decides to take advantage of nuclear power. By 2020, the 
Emirates will have completed four reactors that will provide nearly 25 
percent of its annual electricity.
    It will take building more nuclear reactors to avoid the path of 
Japan and Germany, and today's hearing is an important step to making 
sure the United States does what it must to unleash nuclear power.
    I look forward to working with the commission and our Ranking 
Member, Senator Feinstein, who I will now recognize for an opening 
statement.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you. Mr. Chairman, thank you very 
much. I think that was an excellent opening statement. But I 
also want to thank you for the great privilege of working with 
you. We have worked as chairman and vice chairman. Both of us 
have been alternating. And I just want you to know I do not 
think I ever had a better person to work with in the Senate 
than you.
    Senator Alexander. Thank you.
    Senator Feinstein. We figure out when we disagree what we 
can do about that, and I give some of the time, and you give 
some of the time, and I really think that is in the best 
interest of our democracy and our country. So it is a great 
treat for me to be here. You set up this hearing. I think it is 
a real tribute to you that we have the chairman and three 
members of the Nuclear Regulatory Commission here today.
    My remarks are going to be a little different because I 
wanted to be on this committee because I am really concerned 
about the nuclear waste that is scattered all over this 
country, and I am going to talk a little bit about it. And I 
view the NRC as a critical agency to regulate the nuclear power 
plants and the use of radiologic and nuclear materials critical 
not only to industry, but to the safety of our people.
    So I want to make one other point. There is on the Pacific 
Coast such a thing as a ring of fire, of big earthquakes, that 
over the last several decades have been happening in Southeast 
Asia, southern South America. The latest of these is Fukushima, 
and Fukushima really caused me to open my eyes. And today's 
witnesses are appearing 4 years after that earthquake triggered 
a tsunami that flooded three Fukushima nuclear reactors, 
causing them to melt down. More than 300,000 people were 
evacuated from the surrounding area, and the disaster cost well 
over $100 billion.
    Some post-Fukushima analysis has argued that the Japanese 
regulatory structure was too close to nuclear industry, to the 
industry it was regulating, and that the dysfunction of that 
regulatory system contributed to the disaster. And I want to 
say we cannot allow that to happen in this country. To date, 
the NRC has issued three orders and one request for information 
and initiated a single rulemaking to codify those orders.
    Industry has undertaken some upgrades to back up safety 
equipment, spending around $4 billion on upgrades as required 
by the NRC. This is a substantial amount, but not that much 
when you consider the replacement value of the plants 
themselves, and just a fraction of how much a disaster on the 
scale of Fukushima would cost the United States. So I hope you 
will tell this subcommittee how your actions have made a 
Fukushima-like disaster substantially less likely in the United 
States, and provide us with some reassurance that the NRC is 
executing its role as the tough-nosed regulator it needs to be.
    A second issue of great concern to me, as I mentioned, is 
storage of nuclear fuel. Today, that fuel is piling up at 
reactor sites around the country. To date, we have 78 sites in 
the United States storing approximately 70,000 metric tons of 
spent fuel. Of this total, roughly 20,000 metric tons is in dry 
storage, and the rest in storage pools called spent fuels--
spent fuel pools. The United States nuclear plants continue to 
discharge about 2,100 metric tons of spent fuel per year.
    The United States taxpayers have paid $4.5 billion to 
utilities to store waste at reactor sites, in part because we 
lack a nuclear waste policy. And this is going to lead to an 
additional $23 billion in penalties in the coming years, which 
will be borne by taxpayers. This has driven the two of us to 
call together the chair and ranking member of the energy 
authorizing committee, and try to come up over--was it 3 or 4 
years we have been working on it?
    Senator Alexander. Three years.
    Senator Feinstein. Three years to develop a spent--a 
nuclear waste policy for our country. We have none. Believe it 
or not, we came to agreement. We had in two Secretaries of 
Energy. We had in the Blue Ribbon Commission. We discussed a 
lot among ourselves. At the time, Senator Bingaman was chairman 
of the committee, and so he was replaced by Senator Wyden, and 
we had both of their support. And we had Senator Murkowski who 
has been with us from the beginning, and so we have a Nuclear 
Waste Policy Act now at the energy and water authorizing 
committee.
    The difficult part for me is that it has taken so long to 
generate activity. And candidly, I do not believe the nuclear 
industry itself has been as supportive of it as it should be. 
And for me, this is a real test of that industry because if 
nuclear power is, in fact, as the chairman indicated, to 
continue to be part of our Nation's energy mix, for me this 
situation is unsustainable.
    In August of 2014, the NRC issued a final rule on the 
continued storage of waste at nuclear power plants around the 
country. That rule stated that spent nuclear fuel could be 
stored indefinitely at nuclear sites. So just look at what 
continues to happen at Fukushima. The reactor containment 
vessels were breached during the accident, leaking the 
radioactive water into the ocean. Those vessels continue to 
leak to this day, even as the Japanese pump water into the 
vessels to try to keep the highly radioactive fuel cool.
    Efforts to contain the leaking water, such as building an 
underground ice wall, have proved insufficient. The spent fuel 
pools at Fukushima did not leak, but the temperature inside the 
pools increased, and water quickly evaporated, so that only 20 
feet of water covered the fuel instead of the standard 40 feet. 
Fuel rods were damaged, and radiation was released to the 
environment. Water had to be sprayed from above to keep the 
fuel cool.
    By the NRC's own estimates, nearly all of the spent fuel 
pools in the United States are densely packed with spent fuel 
and will be at capacity in 2015. The Union of Concerned 
Scientists and others believe the risk of an accident and its 
impacts can be significantly reduced by expediting the movement 
of spent fuel from pools to dry casks, and I am inclined to 
agree.
    While the rule does not license storage of spent fuel at 
any specific reactor site, it appears to give a carte blanche 
to nuclear power plant operators to continue generating waste 
without a permanent solution. This is unacceptable to me. 
Previous waste confidence determinations were predicated on 
reasonable progress by the Federal Government in implementing a 
waste management program. However, the NRC has now stated that 
a permanent home for spent nuclear fuel is not necessary for 
the sustainment of growth of nuclear power. In my view, nowhere 
does this new rule provide the basis for such a startling 
reversal of a long-established regulatory framework. Instead, 
it seems to be a rule designed solely to keep the nuclear 
industry operating.
    I deeply believe we desperately need a new policy on 
nuclear waste, and this subcommittee has been committed to 
making progress toward that goal. And that is why I am so happy 
to be working with Senator Alexander on multiple fronts, 
including within this subcommittee, the re-introduction of the 
Nuclear Waste Administration Act.
    Mr. Chairman and members, I think you sit at an important 
juncture. The continued safe operation of nuclear power plants 
is an important source of carbon free electricity. We all 
understand that. But nuclear energy must be safe, and there 
must be a sound policy that addresses the waste stream it 
creates. And let me be candid with you. To me, storing this 
stuff at waste sites, candidly, is not acceptable. I mean, I 
look at San Onofre, two big reactors being de-conditioned, 
2,800 rods in spent fuel pools in an area where six million 
people live and, of course, very close to the Pacific Ocean. Is 
that going to stay there forever?
    If I understand your policy, and please correct me if I am 
wrong, Commissioner Burns, but it could happen. And, you know, 
I look back at Fukushima. The spent fuel pools did not 
collapse, but what happened, as far as I related, and I believe 
is true. California is a very earthquake prone State, and the 
probabilities of a big earthquake in Southern California over 
the next 30 years are way up. I think it is over 60 percent 
probability now, so I feel I have reason to worry.
    And candidly, if it is true that your Commission is saying 
that it is perfectly fine to keep all this stuff at 78 
different sites with all kinds of different geologic 
compositions and all kinds of propensities for geologic 
movement, I really cannot agree with that. So I wanted to just 
put my cards on the table and tell you precisely how I feel, 
and let you know that this is a very big issue for me. So I 
thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Feinstein, and I 
thank you for your comments. I mean, there is nobody I would 
rather work with than you. I think as you can tell, we 
sometimes come at a problem from different directions, but we 
often end up pulling the wagon in the same direction, and 
nuclear waste is certainly one of them that we feel that way. 
So it is a great privilege for me to work with Senator 
Feinstein.
    Now, Mr. Chairman, why don't we start with you and ask you 
to summarize your testimony, if you will, in about five 
minutes. Then whatever the Commission protocol is, why do you 
not just go down the line, and we will look forward to hearing 
from the other commissioners after you.

                 SUMMARY STATEMENT OF STEPHEN G. BURNS

    Mr. Burns. Thank you, Mr. Chairman, and thank you, Ranking 
Member Feinstein. My colleagues and I appreciate the 
opportunity to appear before you today to discuss our fiscal 
year 2016 budget request.
    As you said, the NRC is an independent Federal agency 
established to license and regulate the Nation's civilian use 
of radioactive materials at nuclear installations to ensure 
adequate protection of the public health and safety, to promote 
the common defense and security, and protect the environment. 
The resources that we are requesting in fiscal year 2016 will 
allow us to continue to ensure the safe and secure use of 
radioactive material in the United States.
    I want to emphasize this progress that the NRC and the 
industry have made in making safety enhancements at nuclear 
facilities across the United States in response to the 
Fukushima Daiichi Nuclear Power Plant accident in Japan. After 
the event, the NRC took immediate action to evaluate the 
lessons of the event, and to identify required enhancements at 
U.S. nuclear power plants. Our primary focus throughout this 
effort has been on the highest priority, safety significant 
enhancements to maximize the safety value for nuclear power 
plants.
    A key element of the strategy has been the NRC's 2012 
mitigating strategies order, which required licensees to ensure 
that sites are prepared to respond to beyond design basis 
accidents. Last year, the first plants completed implementation 
of the mitigation strategy requirements, and more than half the 
plants are scheduled to achieve full implementation by the end 
of this year, and the remaining plants, with limited 
exceptions, will complete the necessary actions by 2016.
    New reactor licensing and oversight activities will 
continue in 2016. We expect in this year to continue reviewing 
a number of new reactor combined license applications, and to 
complete three of these reviews. Additionally, the NRC will 
continue to conduct inspections for new reactors under 
construction at the Vogtle site in Georgia and the VC Summer 
Plant in South Carolina. And we also will receive before us a 
recommendation with respect to the licensing of Watts Bar Unit 
2, to be operated by the Tennessee Valley Authority. We also 
expect to review and begin the review of an application for a 
small modular reactor in fiscal year 2016.
    We acknowledge that we are in a changing environment. Since 
2001, the Agency grew significantly to enhance security and 
incident response, and to prepare for the projected growth in 
the use of nuclear power in the United States. The forecast in 
the growth has been adjusted downward in responses to changes 
in the industry, and as is appropriate, the NRC is being 
scrutinized by stakeholders for its reasonable use of 
resources. The Congress has charged the NRC with a critical 
mission, and the NRC can never lose sight of that. Still, we 
can and should maintain focus on our mission while being 
responsible and taking a hard look at whether we are using our 
resources.
    Our budget reflects the efforts to demonstrate our 
responsiveness to this environment. Continuing with trends that 
began in fiscal year 2014, the fiscal year 2016 request 
reflects a reduction in both dollars and full-time equivalents 
in recent years, but still will provide the necessary resources 
to carry out our safety and security mission. As required by 
law, our budget request also provides for a 90 percent fee 
recovery less the amounts appropriated for certain specific 
activities.
    As a key step in our preparation to address our anticipated 
environment, the NRC initiated a project called Project AIM 
2020 last June to enhance our ability to plan and execute our 
mission while adapting in a timely and effective manner to our 
dynamic environment. Through a staff initiative that was 
approved, the charter of which was approved by the Commission, 
internal and external stakeholders were engaged to forecast our 
future workload and operating environment.
    The staff's recommendations were recently provided to the 
Commission with a number of measures to transform the Agency 
over the next 5 years to improve our effectiveness, our 
efficiency, and agility. The report was provided to the 
Commission on January 30, and a couple of weeks ago we released 
it to the public and made copies available to our oversight and 
authorization committees. While my colleagues and I want to be 
timely in responding to the report, we want to do so 
deliberately and smartly.
    One other initiative I would like to mention before I close 
is that the NRC has undertaken over the last several years 
revisions to our rulemaking process to understand and, if 
possible, reduce the cumulative effects of regulation. We are 
continuing to engage our stakeholders on this subject, and we 
will receive further recommendations from our staff for 
additional improvements this spring.
    In sum, we are cognizant of our changing environment. We 
are committed to the safety and security mission of the Agency. 
And we are committed to taking a hard look at ourselves to 
ensure we are prepared for the future.
    This concludes my formal testimony on the budget. On behalf 
of the Commission, I thank you again for the opportunity to 
appear before you, and we look forward to your questions. And 
with that, I will turn it over to Commissioner Svinicki.
    [The statement follows:]
                 Prepared Statement of Stephen G. Burns
    Good morning, Chairman Alexander, Ranking Member Feinstein and 
distinguished members of the subcommittee. My colleagues and I 
appreciate the opportunity to appear before you today to discuss the 
U.S. Nuclear Regulatory Commission's (NRC) fiscal year 2016 budget 
request.
    As you know, the NRC is an independent Federal agency established 
to license and regulate the Nation's civilian use of radioactive 
materials to ensure adequate protection of public health and safety, 
promote the common defense and security, and protect the environment.
    The resources that we are requesting for fiscal year 2016 will 
allow the NRC to continue to ensure the safe and secure use of 
radioactive materials in the United States. The NRC's principal 
regulatory functions are to: establish regulatory requirements; issue 
licenses consistent with those requirements to facility operators and 
those who own, possesses, and use, radioactive materials; oversee these 
licensees to ensure they operate safely and securely, and are in 
compliance with NRC requirements; conduct research to support the NRC's 
safety and security mission; and respond to emergencies involving 
regulated activities. The NRC also participates in international work 
that is integral to the agency's mandate.
    The NRC regulates every aspect of the civilian use of radioactive 
materials. This includes all of the steps and the facilities involved 
in the nuclear fuel cycle, including extraction of uranium from ore, 
conversion of the uranium into a form suitable for enrichment, 
enrichment of uranium to a level and type suitable for nuclear fuel, 
and fabrication of uranium into fuel assemblies for use in reactors. 
When the fuel assemblies can no longer sustain efficient reactor 
operations, they are removed from the reactors and stored as waste.
    In fiscal year 2016, the NRC will continue licensing and oversight 
activities for 100 operating commercial nuclear power reactors, 
including the anticipated operation of the Watts Bar Unit 2 nuclear 
power station. The resources that we have requested for fiscal year 
2016 also support completion of the highest-priority actions on the 
lessons learned from the Fukushima Daiichi Nuclear Power Plant 
accident, including seismic and flooding hazard reevaluations.
    I would like to take a moment to emphasize the significant progress 
the NRC and the industry continue to make in implementing post-
Fukushima safety enhancements at nuclear facilities across the United 
States. The NRC's primary focus throughout this effort has been on the 
highest-priority, most safety-significant enhancements to maximize the 
safety impact for nuclear power plants. The NRC's expectation is that 
most licensees will complete implementation of the most safety-
significant enhancements by, or before, 2016.
    A key element of the post-Fukushima safety enhancements is the 
NRC's 2012 Mitigating Strategies Order, which required licensees to 
ensure that sites are prepared to respond to beyond-design-basis 
events. These requirements include procuring additional equipment to 
maintain or restore core cooling, containment integrity, and spent fuel 
pool cooling for all units at a site. Last year, the first plants 
completed implementation of all mitigating strategies requirements. 
More than half of nuclear power plants are scheduled to achieve full 
implementation by the end of 2015, with the remaining plants to be 
completed by 2016. The one exception to this schedule is that some 
boiling water reactors are requesting schedule extensions for those 
parts of the mitigating strategies affected by the NRC's revision to 
the order on containment venting. During and after implementation of 
the mitigating strategies requirements, the NRC will conduct 
inspections to verify that nuclear power plants have put appropriate 
strategies in place to mitigate beyond-design-basis events.
    In the past year, both of the industry's National Response Centers 
(in Phoenix, Arizona and in Memphis, Tennessee) have become 
operational. Both centers contain multiple sets of emergency diesel 
generators, hoses, and other backup equipment that can be delivered to 
any nuclear power plant in the United States within 24 hours. These 
response centers address a key element of the 2012 Mitigation 
Strategies Orders, which was to provide sufficient offsite resources to 
sustain plant safety functions indefinitely.
    New reactor licensing and oversight activities are expected to 
continue during fiscal year 2016. In fiscal year 2016, the NRC planned 
to review nine new reactor combined license applications and to 
complete three of these reviews. Additionally, the NRC will continue to 
conduct inspections for new reactors under construction, namely, the 
Vogtle Electric Generating Plants, Units 3 and 4; and Virgil C. Summer, 
Units 2 and 3. The NRC also expects to receive and will begin to review 
a small modular reactor application. In fiscal year 2016, the NRC 
expects to complete the review of one construction permit application 
for a medical isotope production facility and conduct environmental and 
safety reviews of construction permits for two additional medical 
isotope production facilities.
    The NRC takes regulatory actions to ensure the safety and security 
of radioactive materials by licensing and overseeing medical, academic, 
and industrial and research users; nuclear waste and spent fuel storage 
facilities; certifying storage and transportation containers; 
responding to events; and overseeing decontamination and 
decommissioning activities. In addition, under authority provided in 
the Atomic Energy Act of 1954, as amended, the agency has agreements 
with 37 States under which those States assume regulatory 
responsibility for the use of certain radioactive materials. Combined, 
the NRC and the Agreement States oversee over 21,000 material 
licensees. The NRC further enhances its regulatory program through 
coordination and cooperation with other Federal agencies, States, 
Tribes, and international organizations and foreign governments.
                  the changing regulatory environment
    Before I get into the specifics of the NRC's fiscal year 2016 
budget request, I would like to take a moment to address the NRC's 
efforts to address the changing environment in which we now find 
ourselves. Since 2001, the agency has grown significantly to enhance 
security and incident response and to prepare for the projected growth 
in the use of nuclear power in the United States. That forecast in 
growth has been adjusted downward in response to changes in the nuclear 
industry. As is appropriate, the NRC is being scrutinized by its 
stakeholders for its responsible use of resources. The Congress has 
charged the NRC with a critical mission to ensure adequate protection 
of public health and safety and the common defense and security, and 
the NRC can never lose sight of this mission. Still, the agency can and 
should maintain focus on our mission while also taking a responsible 
and hard look at whether it is effectively using resources.
    The NRC has proactively taken steps to address these issues in its 
regulatory processes, budget, and fee collections.
    I start with the NRC's budget. The NRC's fiscal year 2016 proposed 
budget reflects the NRC's efforts to demonstrate its responsiveness to 
the new environment in which we find ourselves. Continuing with trends 
that began in fiscal year 2014, the fiscal year 2016 budget request 
reflects a reduction in both dollars and full time equivalents from 
budget proposals in recent years.
    In addition, the NRC's proposed fiscal year 2015 fee rule, which 
will be published for public comment in the coming weeks, will include 
estimates for reductions in licensee annual and hourly fees that we 
expect in our final fee rule. For power reactors, the estimated annual 
fees will be $4.75 million per reactor which is down 5 percent from 
fiscal year 2014. The NRC hourly rate is estimated at $268 in fiscal 
year 2015, a drop from $279 in fiscal year 2104. These decreases are 
primarily due to a reduced fiscal year 2015 Enacted Budget which allows 
the NRC to utilize prior year carryover funds providing available 
resources to meet the NRC's mission requirements. The fiscal year 2015 
Enacted Budget also decreases 26.5 FTE from fiscal year 2014. These 
savings were realized from projected workload reductions and overhead 
efficiency measures. The fiscal year 2015 proposed fee rule will also 
reflect a positive increase in the agency's staff productivity 
assumption of 1,375 hours in fiscal year 2014 to 1,420 hours in fiscal 
year 2015.
    The NRC continues to focus on the transparency of the NRC Fee Rule 
and has recently received a benchmarking report to assist us in looking 
at the fee practices of other regulatory agencies. The NRC will hold a 
public meeting on the fiscal year 2015 proposed fee rule during the 
comment period to engage with stakeholders on our methodology and 
presentation of license fees. This is a priority for our Chief 
Financial Officer.
    Perhaps the most significant NRC undertaking with respect to the 
changing regulatory environment is Project Aim 2020. The NRC launched 
Project Aim 2020 in June 2014 to enhance the agency's ability to plan 
and execute its mission while adapting in a timely and effective manner 
to a dynamic environment.
    The Project Aim 2020 team gathered perspectives from internal and 
external stakeholders to forecast the future workload and operating 
environment in 2020. Based on analysis of these perspectives, and an 
evaluation of the NRC's current State compared to the anticipated 
future State, the staff identified key strategies and recommendations 
to transform the agency over the next 5 years to improve the 
effectiveness, efficiency, and agility of the NRC. The staff's efforts 
are reflected in its report that was provided to the Commission on 
January 30, 2015.
    The Commission considers this report to be the beginning of a 
dialogue about the future of the NRC. In that spirit, and in an effort 
to emphasize the NRC's seriousness, the Commission made the report 
available to the public on February 18. In addition, the Commission was 
also briefed by the NRC staff on the report in a public meeting that 
occurred on the same day. Advance copies of the report were also 
provided directly to our Congressional appropriations and oversight 
committees.
    I will not go into great detail on the Project Aim 2020 report 
except to note that it concludes that the NRC needs to function more 
efficiently by: right-sizing the agency while retaining appropriate 
skill sets needed to accomplish its mission; streamlining agency 
processes to use resources more wisely; improving timeliness in 
regulatory decisionmaking and responding quickly to changing 
conditions; and promoting unity of purpose with clearer agency-wide 
priorities.
    I speak for my colleagues when I tell you that each member of the 
Commission wants to be timely in acting on this report, but it also 
wants to do so deliberately and smartly. Although the NRC recognizes 
the need for change, it also is keenly aware that major organizational 
change, if not done wisely, can have a detrimental effect on the 
agency's mission and on the morale of its employees. The NRC has a 
critical mission and some of the most dedicated, knowledgeable, and 
highly-respected employees in the Federal Government. I can tell you 
from my own recent international experience, the NRC is respected as a 
world-class organization.
    I cannot emphasize enough that the NRC's ability to protect public 
health and safety and the common defense and security will always be 
our main concern. Nevertheless, we can and should take a hard look at 
how to ensure the agency carries out its mission effectively while also 
being more efficient and fiscally responsible.
    Project Aim 2020 is but one part of the self-assessment the NRC has 
undertaken in recognition of the changing environment. For instance, 
over the last several years, the Commission has revised its rulemaking 
processes to understand, and if possible reduce, the cumulative effects 
of regulations. These new processes include increased opportunities for 
stakeholder interactions and feedback, publishing draft supporting 
guidance concurrent with proposed rules, requesting specific comment on 
the cumulative effects of regulations in proposed rules, and developing 
better-informed implementation timeframes.
    In addition, the NRC has sought industry volunteers to perform case 
studies on the accuracy of cost and schedule estimates used in NRC's 
regulatory analyses. Based on those results, additional regulatory 
analysis process enhancements are planned to improve cost estimating. 
We believe that applying these process enhancements will result in a 
better understanding of the implementation costs associated with new 
regulations for operating reactors.
    With respect to cost benefit analysis, I note that the Government 
Accountability Office (GAO) recently completed a report that concluded 
the NRC needs to improve its cost estimating practices. Although the 
NRC did not agree with all of GAO's specific recommendations, it did 
agree generally that the NRC's regulatory analyses practices could be 
improved, and has started to take steps, as described above, to do so.
    In sum, as these examples have shown, the Commission is very 
cognizant of our changing environment and is committed to taking a hard 
look at itself to ensure that it is prepared for the future as it now 
appears to exist.
                    fiscal year 2016 budget request
    The NRC's fiscal year 2016 budget request provides the necessary 
resources for to carry out the agency's mission for the American 
public. The NRC's proposed fiscal year 2016 budget is $1,032.2 million, 
including 3,754 full-time equivalents (FTE).
    To fully understand the fiscal year 2016 proposed budget in 
relation to the fiscal year 2015 Enacted Budget one must consider the 
unique funding scenario for the NRC in the Consolidated and Further 
Continuing Appropriations Act of 2015. The fiscal year 2015 
Appropriation Act reduced the fiscal year 2015 budget request for 
salaries and expenses by $44.2 million to account for fee-based 
unobligated carryover and a recognition of reduced workload and agency 
productivity and efficiency gains. It also authorized the Commission to 
reallocate the agency's unobligated prior-year carryover to supplement 
its fiscal year 2015 appropriations. As a result, while the fiscal year 
2016 Budget represents a $16.9 million increase over the fiscal year 
2015 Enacted Budget, the NRC's total available resources in fiscal year 
2015 are $1,049.5 million. For essentially the same workload with the 
exception of the University Grants program, the NRC's fiscal year 2016 
budget request is $17.3 million less (including a reduction of 37.5 
FTE) compared to the total available fiscal year 2015 resources.
    The NRC Office of Inspector General (OIG) component of the fiscal 
year 2016 proposed budget is $12.1 million, including 63 FTE. The OIG 
budget includes approximately $11.2 million for auditing and 
investigation activities for NRC programs, and $1.0 million for the 
auditing and investigations activities of the Defense Nuclear 
Facilities Safety Board (DNFSB). These resources will allow the OIG to 
carry out the Inspector General's mission to independently and 
objectively conduct audits and investigations to ensure the efficiency 
and integrity of NRC and DNFSB programs and operations, to promote 
cost-effective management and to prevent and detect fraud, waste, and 
abuse.
    Under the provisions of the Omnibus Budget Reconciliation Act of 
1990, as amended, the NRC's fiscal year 2016 budget request provides 
for 90 percent fee recovery, less the amounts appropriated for, (1) 
waste incidental to reprocessing activities under Section 3116 of the 
Ronald W. Reagan National Defense Authorization Act for fiscal year 
2005, (2) generic homeland security activities, and (3) DNFSB 
activities. Accordingly, approximately $910 million of the fiscal year 
2016 budget request will be recovered from fees assessed to NRC 
licensees. This will result in a net appropriation of $122 million.
    The NRC continues to look for cost savings at the agency and has 
taken cuts in overhead for the last 5 years. While the available 
resources are comparable for fiscal year 2015 and fiscal year 2016, the 
NRC's fiscal year 2016 workload changes and efficiency savings allows 
the agency to fund fact-of-life increases without an increase to the 
overall budget. The NRC's fiscal year 2016 budget request reflects the 
Office of Management and Budget guideline of a 1.3 percent increase in 
salaries and benefits for a cost of living increase and accommodates 
routine contract cost escalations.. The budget also adheres to 
commitments to the House Committee on Transportation and Infrastructure 
for NRC space usage. In fiscal year 2016, all NRC Headquarters 
employees will be located in the three buildings of the White Flint 
Campus and the Food and Drug Administration will occupy eight floors of 
the newest building. NRC will continue to occupy five floors including 
the Operations Center, Professional Development Center for staff 
training courses, and the Data Center as well as office space to 
support those programs.
    I would now like to highlight the following portions of the fiscal 
year 2016 Budget Request.
                         nuclear reactor safety
Operating Reactors
    The Operating Reactors Business Line encompasses the regulation of 
100 operating civilian nuclear power reactors and 31 research and test 
reactors. The fiscal year 2016 budget request for Operating Reactors is 
$601.7 million, which represents an overall funding decrease of $10.4 
million when compared with the fiscal year 2015 Available Resources.. 
This funding level supports completing work related to implementation 
of the lessons learned from the nuclear accident at the Fukushima 
nuclear power plant in Japan, work on topical reports, and reducing the 
number of pending licensing actions.
New Reactors
    The New Reactors Business Line is responsible for the regulatory 
activities associated with locating, licensing, and overseeing 
construction of new nuclear power reactors. The fiscal year 2016 budget 
request for New Reactors is $191.7 million, which represents an overall 
funding decrease of $5 million when compared with the fiscal year 2015 
Available Resources. The decrease is a result of delays in application 
submittals, and project slowdowns or suspensions.
                   nuclear materials and waste safety
Fuel Facilities
    The Fuel Facilities Business Line supports licensing, oversight, 
rulemaking, international activities, research, generic homeland 
security, and event response associated with the safe and secure 
operation of various operating and new fuel facilities such as 
conversion, enrichment, and fuel fabrication facilities, and nuclear 
fuel research and pilot facilities.
    The fiscal year 2016 budget request for Fuel Facilities is $51.5 
million, which represents an overall funding increase of $0.8 million 
when compared with the fiscal year 2015 Available Resources.
Nuclear Materials Users
    The Nuclear Materials Users Business Line supports the safe and 
secure possession, processing, handling, and the many diverse uses of 
nuclear materials, along with associated licensing, oversight, 
rulemaking, international activities, research, generic homeland 
security, event response, and State, Tribal, and Federal Program 
activities.
    The fiscal year 2016 budget request for Nuclear Material Users is 
$87.4 million, which represents an overall funding decrease of $1.7 
million when compared with the fiscal year 2015 Available Resources.
Spent Fuel Storage and Transportation
    The Spent Fuel Storage and Transportation Business Line supports 
licensing, oversight, rulemaking, international activities, research, 
and generic homeland security associated with the safe and secure 
storage and transportation of spent nuclear fuel and other radioactive 
materials.
    The fiscal year 2016 budget request for Spent Fuel Storage and 
Transportation is $43.8 million, which represents an overall funding 
decrease of $2.4 million when compared with the fiscal year 2015 
Available Resources. The decrease is in the oversight, research, and 
rulemaking areas and does not represent a significant change in work 
scope.
Decommissioning and Low-Level Waste
    The Decommissioning and Low-Level Waste Business Line supports 
licensing, oversight, rulemaking, international activities, and 
research associated with the safe and secure operation of uranium 
recovery facilities, removal of nuclear facilities from service and 
reduction of residual radioactivity to a level that permits release of 
the property and termination of the NRC license, and disposition of 
low-level radioactive waste from all civilian sources.
    The fiscal year 2016 budget request for Decommissioning and Low-
Level Waste is $44.1 million, which represents an overall funding 
increase of $1.5 million when compared with the fiscal year 2015 
Available Resources. The increase reflects greater resource needs to 
support oversight of decommissioning of power reactors and uranium 
recovery facilities licensing activities.
                                closing
    Chairman Alexander, Ranking Member Feinstein, and distinguished 
Members of the Subcommittee, this concludes my formal testimony on the 
NRC's fiscal year 2016 budget request. On behalf of the Commission, I 
thank you for the opportunity to appear before you. I look forward to 
continuing to work with you to advance the NRC's important safety and 
security missions. I would be pleased to respond to any questions that 
you may have. Thank you.

    Senator Alexander. Thank you, Chairman Burns. Commissioner 
Svinicki.
STATEMENT OF KRISTINE L. SVINICKI, COMMISSIONER, U.S. 
            NUCLEAR REGULATORY COMMISSION
    Ms. Svinicki. Thank you, Chairman Alexander and Ranking 
Member Feinstein, for the opportunity to appear before you this 
afternoon. Our Commission's chairman, Stephen Burns, in his 
statement on behalf of our Commission has provided a 
description of the Agency's budget request as well as key 
Agency accomplishments and challenges in carrying out NRC's 
important mission, that of protecting public health and safety 
and promoting the common defense and security. In light of his 
summary, I will simply look forward to your questions. Thank 
you.
    [The statement follows:]
               Prepared Statement of Kristine L. Svinicki
    Thank you, Chairman Alexander, Ranking Member Feinstein, and 
members of the subcommittee, for the opportunity to appear before you. 
The Commission's Chairman, Stephen Burns, in his statement on behalf of 
the Commission, has provided a description of the agency's budget 
request, as well as key agency accomplishments and challenges in 
carrying out the Nuclear Regulatory Commission (NRC's) important 
mission of protecting public health and safety and promoting the common 
defense and security of our Nation.
    I look forward to your questions on these topics. Thank you.
STATEMENT OF WILLIAM C. OSTENDORFF, COMMISSIONER, U.S. 
            NUCLEAR REGULATORY COMMISSION
    Mr. Ostendorff. Good afternoon, Chairman Alexander and----
    Senator Alexander. Commissioner Ostendorff.
    Mr. Ostendorff [continuing]. Ranking Member Feinstein. This 
is my first chance to testify before this committee, and I am 
grateful for the opportunity. I would like to acknowledge that 
this is Chairman Burns' first appearance before Congress in his 
new role as chairman, and we are very pleased to have him 
leading this Commission.
    The chairman has already provided an overview of the NRC's 
changing--the changing environment and steps we are taking to 
improve operations through Project AIM. I am in complete 
alignment with his testimony. I will, however, make three very 
brief points in the next few minutes.
    The first concerns the status of post-Fukushima safety 
enhancements. Along with Commissioner Svinicki, I have been 
involved in all of the Commission's decisionmaking related to 
what safety changes we should require as a result of the 
operating experience from Fukushima. I clearly recall visiting 
Watts Bar with Senator Alexander just a few weeks after the 
Fukushima event. Looking back over the actions NRC has taken 
over the past 4 years as a result of Fukushima lessons learned, 
I firmly believe the Agency has acted on a foundational basis 
of solid science and engineering.
    We have appropriately given highest priority to those tier 
one items associated with the greatest safety significance. I 
will not go in any details here, but will make two very brief 
comments. First, as a former Rickover era nuclear submarine 
officer, and I spent 16 out of 26 years on sea duty operating 
nuclear power plants on submarines, based on experience and my 
experience as a Commissioner, I am very confident in the NRC's 
safety actions we require post-Fukushima. And, second, as I 
compare our actions and approach to that of the broader 
international community, I am convinced we continue to be a 
world leader in nuclear safety.
    My second point relates to licensing of new reactors. When 
I was sworn in as a commissioner on April 1st of 2010, NRC was 
reviewing license applications for 26 reactors. As a member of 
the Commission these past 5 years, I have voted to approve the 
design certifications for the Westinghouse Safety 1000, the 
combined construction operating licenses for Summer and Vogtle. 
More recently, I voted to approve the GE-Hitachi Economic 
Simplified Boiling Reactor Design certification.
    But today we are in a different place, as Chairman Burns 
noted. Rather than reviewing 26 reactor applications as we were 
5 years ago, today we are reviewing seven applications for a 
total of 11 reactors. I need not inform this committee of the 
significant fact of life changes the nuclear industry has faced 
since the heady days of a projected nuclear renaissance circa 
2005-2008. The unexpected leap in shale gas reserves, 
concurrent plummet in natural gas prices, flat or declining 
electricity demand in certain areas, and other economic factors 
have dramatically changed the landscape for projected nuclear 
generation capacity.
    While fully supporting achieving greater Agency 
efficiencies in the Project AIM arena, both this Commission as 
well as this committee and the broader Congress need to work 
together to ensure that we do not lose those critical skill 
sets used by our highly technical staff to review and license 
new reactor technologies in the future. To do otherwise would 
negatively impact our Nation's ability to pursue nuclear 
technology options in the future. We should not let that 
happen.
    My third and final point concerns Yucca Mountain. As 
evidenced in your statement, Senator Alexander, Senator 
Feinstein, I know that you are very interested in our Nation's 
spent fuel and disposal challenge, and we appreciate your 
leadership in that area. I am very proud of our NRC's staff 
work to complete and publish the final safety and evaluation 
report for Yucca Mountain in January of this year. The Yucca 
Mountain Safety Evaluation Report involved highly technical and 
complex issues. Our staff successfully met the challenge and 
did its job. We now look forward to progress towards a long-
term spent nuclear fuel disposal solution as mandated by the 
Nuclear Waste Policy Act or that act as it may be amended going 
forward.
    In closing, I appreciate the opportunity to be here today 
and look forward to your questions. Thank you.
    [The statement follows:]
              Prepared Statement of William C. Ostendorff
    Good afternoon Chairman Alexander, Ranking Member Feinstein and 
distinguished members of the subcommittee.
    This is my first time to testify before this Committee--I am 
grateful for the opportunity. I would also like to acknowledge that 
this is Chairman Burns first appearance before Congress in his new role 
as Chairman. We are very pleased to have him leading the Commission.
    The Chairman has already provided an overview of the Nuclear 
Regulatory Commission's (NRC's) budget, the changing environment, and 
steps we're taking to improve the operations of the NRC through project 
AIM. I am in complete alignment with his testimony
    I will make three brief points in the next few minutes that I 
believe are relevant to this Committee.
    The first concerns the status of post-Fukushima safety 
enhancements. Along with Commissioner Svinicki, I have been involved in 
all of the Commission's decisionmaking related to what safety changes 
we should require as a result of the operating experience from the 
tragic earthquake and tsunami in Japan 4 years ago. I clearly recall 
visiting Watts Bar with Senator Alexander just a few weeks after the 
Fukushima event.
    Looking back over the actions the NRC has taken over the past 4 
years as a result of Fukushima lessons learned, I firmly believe the 
agency has acted on a foundational basis of solid science and 
engineering. We have appropriately given highest priority to the Tier 
One items associated with greatest safety significance. I will not go 
into any details here--the Chairman's testimony does that. I will make 
two comments. First, as a former Rickover era nuclear submarine officer 
who spent 16 out of my 26 years in the Navy operating submarine reactor 
plants, I am confident in the NRC's safety actions post-Fukushima. And 
second, as I compare our actions and approach to that of the broader 
international community, I am convinced we continue to be a world 
leader in nuclear safety.
    My second point relates to licensing of new reactors. When I was 
sworn in as a Commissioner April 1, 2010, the NRC was reviewing license 
applications for 26 reactors. As a member of the Commission these past 
5 years, I have voted to approve design certifications for the 
Westinghouse AP 1000 design certification, Summer and Vogtle combined 
construction/operating licenses (or COL's) and more recently, I voted 
to approve the design certification for the GE-Hitachi Economic 
Simplified Boiling Water Reactor. The math is simple. Rather than 
currently reviewing 26 minus 4 or 22 COLs, we are reviewing 9 
applications. I need not inform this Committee the significant fact of 
life changes the nuclear industry has faced since the heady days of a 
rumored nuclear renaissance circa 20052008. The unexpected leap in 
shale gas reserves and concurrent plummet in natural gas prices, flat 
or declining electricity demand in certain areas and other economic 
factors have dramatically changed the landscape for projected nuclear 
generation capacity. While fully supporting achieving greater agency 
efficiencies in the Project AIM arena, we--both the Commission and 
Congress--need to work together to ensure that we do not lose those 
critical skills sets used by our highly technical staff to review and 
license new reactor technologies, including Small Modular Reactors, as 
we proceed in the months and years ahead. To do otherwise would 
negatively impact our Nation's ability to pursue nuclear technology 
options in the future. We should not let that happen.
    My third and final point concerns Yucca Mountain. I know that this 
Committee is keenly interested in solving our Nation's spent fuel 
disposal challenge. I have spoken over the past few years to both 
Senator Alexander and Senator Feinstein and your staffs on the topic of 
spent fuel. I am proud of our staff's work to complete and publish the 
final safety evaluation report for Yucca Mountain in January of this 
year. The Yucca Mountain Safety Evaluation Report involved highly 
technical and complex issues--our staff successfully met the technical 
challenge and did its job. We now look forward to progress towards a 
long-term spent nuclear fuel disposal solution as mandated by the 
Nuclear Waste Policy Act.
    In closing, I appreciate the opportunity to share these thoughts 
with you today and look forward to your questions.

    Senator Alexander. Thank you. Commissioner Baran.
STATEMENT OF JEFF BARAN, COMMISSIONER, U.S. NUCLEAR 
            REGULATORY COMMISSION
    Mr. Baran. Thank you. Chairman Alexander, Ranking Member 
Feinstein, and members of the subcommittee, thank you for the 
opportunity to appear today before the subcommittee. It is a 
pleasure to be here with my colleagues to discuss NRC's fiscal 
year 2016 budget request and the work of the Commission.
    First and foremost, NRC is focused on our mission of 
protecting public health and safety, yet the Agency faces a 
different environment than what was expected just a few years 
ago when substantial new reactor construction was anticipated 
and no licensees had yet announced plans to shut down any 
reactors. To meet our responsibilities now and in the future, 
we need to enhance the efficiency, effectiveness, and agility 
of the Agency.
    In order to avoid disrupting the Agency's work, it is 
important to set a thoughtful trajectory to the appropriate 
resource and staffing levels over the next few years. We need 
to make sure that we do a good job matching resources to 
expected workload. Before I joined the Commission, my 
colleagues had the foresight to initiate Project AIM, the 
internal working group tasked with looking at the challenges--
or changes rather--NRC should make to prepare for the future. 
This is a valuable and timely effort. The results of the team's 
work were recently submitted to the Commission, and we are 
actively deliberating on the recommendations.
    While we work to increase the Agency's efficiency and 
agility, we need to ensure that NRC also maintains its focus on 
its ongoing safety work. Currently, five new reactors are being 
built in the United States, and five reactors recently ceased 
operations and are entering decommissioning. At the 
construction sites, NRC is conducting oversight to ensure that 
the new plants are built safely and in accordance with 
regulatory requirements. For the decommissioning plants, the 
Agency reviews requests for exemptions from some of the 
requirements that apply to operating plants. Meanwhile, the NRC 
staff is beginning a rulemaking to take a fresh look at a 
number of decommissioning issues.
    NRC is continuing to address post-Fukushima safety 
enhancements and lessons learned. Progress has been made in 
several areas, as my colleagues recognized, but we also 
recognize that more work remains to be done. NRC also is 
responsible for having an efficient and effective licensing 
process for new designs and facilities. While NRC continues its 
work on pending applications for new reactors, we need to be 
ready to accept and review applications submitted for new 
technologies. We are expecting to receive the first application 
for a small modular reactor in 2016. NRC is already reviewing 
an application for a new production facility for medical 
isotopes, and anticipates additional applications of this type 
in the future.
    Thank you, and I look forward to your questions.
    [The statement follows:]
                    Prepared Statement of Jeff Baran
    Chairman Alexander, Ranking Member Feinstein, and members of the 
subcommittee, thank you for the opportunity to appear today before the 
Energy and Water Appropriations Subcommittee. It is a pleasure to be 
here with my colleagues to discuss Nuclear Regulatory Commission's 
(NRC's) fiscal year 2016 budget request and the work of the Commission.
    First and foremost, NRC is focused on our mission of protecting 
public health and safety. Yet the agency faces a different environment 
than what was expected just a few years ago when substantial new 
reactor construction was anticipated and no licensees had yet announced 
plans to shut down any reactors. To meet our responsibilities now and 
in the future, we need to enhance the efficiency, effectiveness, and 
agility of the agency. In order to avoid disrupting the agency's work, 
it is important to set a thoughtful trajectory to the appropriate 
resource and staffing levels over the next few years. We need to make 
sure that we do a good job matching resources to expected workload.
    Before I joined the Commission, my colleagues had the foresight to 
initiate Project Aim, an internal working group tasked with looking at 
the changes NRC should make to prepare for the future. This is a 
valuable and timely effort. The results of the team's work were 
recently submitted to the Commission and we are actively deliberating 
on their recommendations.
    While we work to increase the agency's efficiency and agility, we 
need to ensure that NRC also maintains its focus on its ongoing safety 
work.
    Currently, five new reactors are being built in the U.S. and five 
reactors recently ceased operations and are entering decommissioning. 
At the construction sites, NRC is conducting oversight to ensure that 
the new plants are built safely and in accordance with regulatory 
requirements. For the decommissioning plants, the agency reviews 
requests for exemptions from some of the requirements that apply to 
operating plants. Meanwhile, the NRC staff is beginning a rulemaking to 
take a fresh look at a number of decommissioning issues.
    NRC is continuing to address post-Fukushima safety enhancements and 
lessons learned. Progress has been made in several areas, but we 
recognize that more work remains to be done.
    NRC also is responsible for having an efficient and effective 
licensing process for new designs and facilities. While NRC continues 
its work on pending applications for new reactors, we need to be ready 
to accept and review applications submitted for new technologies. We 
are expecting to receive the first application for a small modular 
reactor in 2016. NRC already is reviewing an application for a new 
production facility for medical isotopes and anticipates additional 
applications of this type in the future.
    Thank you, and I look forward to your questions.

    Senator Alexander. Thank you, Commissioner Baran. We have 
been joined by Senator Murkowski, who is chairman of the Energy 
Committee. And, Senator Murkowski, Senator Feinstein and I have 
already commented on how we have worked with you on nuclear 
waste. And I wonder if you have a statement that you would like 
to make before we begin our questions.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the opportunity to just say briefly a couple of words here. 
First, thank you for this hearing, as well as a series of 
others that relate to our nuclear oversight and what your 
subcommittee certainly has jurisdiction over. I am hopeful that 
I can attend more of these because I do feel that it is 
imperative that as we look to our energy portfolio as a Nation 
that we be working actively to advance the nuclear portfolio 
when it comes to our energy needs and our energy security.
    And, Commissioner Ostendorff, you mentioned kind of where 
we are currently in a post-Fukushima world with the low cost of 
natural gas and the direction that is moving things. This is 
something that I have long felt that the United States has 
started to take a back seat when it comes to our leadership 
role in advancing nuclear energy and the manufacturing end of 
it, the workforce development, and I do not think that we 
should be going backwards in this regard. I think we need to 
assert that leadership and do so in a way that is smart and 
safe, but again, really recognizing our full potential there.
    And that is one of the reasons why I have enthusiastically 
joined the Senator from California and the chairman of this 
appropriations subcommittee in trying to figure out how we do 
deal with the waste end of our nuclear situation and solution 
in this country. And I am hopeful that along with Senator 
Cantwell, we will be able to advance some of the constructive 
ideas that have come from the Blue Ribbon Commission that we 
have attempted to put into our legislation, build that out, and 
ensure that we continue to have a leadership role with regards 
how we address nuclear energy in this country.
    So I look forward to more of these conversations and look 
forward to the opportunity to ask a few questions this 
afternoon. Thank you.
    Senator Alexander. Thank you, Senator Murkowski. I know you 
have other commitments this afternoon, and thank you for making 
time to come. We know the difference between an authorizing 
committee and an appropriations committee, and we are the 
appropriations and you are the authorizing, and I am proud to 
also be a member of your committee. I would like for the 
Commission to know we are working hand-in-hand in this effort. 
While we have a nuclear waste proposal that will go through 
Senator Murkowski's committee, for the last two Congresses we 
have also had through our Appropriations Committee, of which 
she is also a member, a pilot project with her support and 
agreement to try to advance our nuclear waste efforts on two 
different fronts. So I appreciate her attitude, and we will 
look forward to working with her.
    Of course, Senator Feinstein's passion and urgency for 
getting the nuclear waste out of the sites in California where 
reactors are not operating in the 78 sites, getting it out of 
spent fuel and dry cask to a single--the easiest way to do that 
would be to take it all to Yucca Mountain. I mean, it is there, 
the law says that is where the waste is supposed to go, and the 
science now says it is safe. And the U.S. Court of Appeals for 
the District of Columbia in 2013--directed the Commission to 
resume its licensing activities for Yucca Mountain.

                        YUCCA MOUNTAIN LICENSING

    So, Mr. Chairman, is the Commission complying with that 
ruling?
    Mr. Burns. Yes, Senator, I believe we are. As a result of 
the court ruling, the court directed the NRC to expend the--
what was in effect--carryover funds that it had remaining and 
had not expended at that respect, and to continue with Yucca 
Mountain activities. What the Agency did do is it completed the 
SER, I think as you noted during your statement. Recently, the 
Commission approved going forward to complete a supplemental 
environmental impact statement on certain issues. This was in 
part because the Department of Energy declined to do so. But 
with the funding we have left, and it was otherwise appropriate 
for us to do that EIS, and there are some other activities.
    I think that is on the order of something like about $4 
million that is left from that funding, but at that point, we 
have no other funding. And as the court indicates, the funding, 
notwithstanding the authorizations in the Waste Policy Act, it 
does also depend on further appropriation of money to the 
various agencies.
    Senator Alexander. Is the next step after the environmental 
impact statement restarting the hearings before the Atomic 
Safety and Licensing Board?
    Mr. Burns. Yes, that is essentially correct.
    Senator Alexander. And what will that cost, and do you have 
the money to do that?
    Mr. Burns. I think the Agency, and I would ask my two 
colleagues who are here before I return to the Agency to 
correct me if I am wrong. I think the Agency has provided an 
estimate of something like $330 million for the completion of--
an estimate of completion of Yucca Mountain related activities.
    Mr. Ostendorff. I would just like to add to the chairman's 
statement, there are approximately 280 legal contentions that 
would need to be dispositioned by the Atomic Safety and 
Licensing Board. That dollar estimate is an estimate. It is not 
a precise number because the adjudication litigation process 
sometimes is difficult to predict.
    Senator Alexander. So to understand, you are saying roughly 
to complete all of the activities between now and opening of 
Yucca Mountain, it would be $330 million?
    Mr. Burns. For the decision, yes. For the decision on the 
licensing decision that the Agency is--which is part of our 
regulatory----
    Senator Alexander. So the last step before the opening of 
Yucca Mountain is the issuing of a license. Is that right?
    Mr. Burns. Well, the license is a construction 
authorization. There is another--under the Waste Policy Act, 
there is another--basically an operating license. But to take 
it to a point toward construction----
    Senator Alexander. Oh, okay. Is the $330 million just for 
the construction license?
    Mr. Burns. It is for, yes, this phase.
    Ms. Svinicki. I should note, Mr. Chairman, as well that I 
believe those are NRC's costs of $330 million. The applicant, 
which is the Department of Energy in this case, would have 
their own costs for supporting that adjudicatory proceeding.
    Senator Alexander. The President's budget estimates the 
Nuclear Waste Fund has a balance of $36 billion at the 
beginning of fiscal year 2016. How much of that Waste Fund paid 
in by utilities collected from electric bills could you use for 
these costs associated with completing Yucca Mountain?
    Mr. Burns. Well, the amounts that are collected in the 
Waste Fund have to be appropriated to the Agency. We do not 
have an authorization to just to tap the Waste Fund.
    Senator Alexander. So you need for us to act to be able to 
use those funds.
    Mr. Burns. You would need--yes, correct.

                PILOT PROGRAM FOR CONSENT-BASED STORAGE

    Senator Alexander. Let me shift gears just a little bit. If 
we were--if Senator Feinstein, and I, and Senator Murkowski 
were to include in the energy and water appropriation bill 
again this year a pilot program for consent-based storage of 
nuclear waste, are you prepared to act quickly if this becomes 
law? And give me a little idea about what has to happen if we--
assuming we pass--assuming that becomes law, then what happens? 
I think you have an application, for example.
    Mr. Burns. Well, for example, we have an application or are 
about to get an application from a private corporation that is 
interested in building a storage--above-ground storage facility 
in the western part of Texas. We have the capability----
    Senator Alexander. So that could be--that could be a 
consolidated site, not a temporary? That could be a repository 
of the kind envisioned by the pilot program that Senator 
Feinstein talked about.
    Mr. Burns. As I understand it, it could be there. There are 
probably changes in the law in order to authorize it, but that 
is something you could address in your--in your legislation.
    Senator Alexander. Well, is the first step for it to then--
if that application were to come in, is the step then for you 
to give a rule on whether or not it gets licensed or not? Is 
that the----
    Mr. Burns. Well, I think we would have a responsibility 
regardless of, I think, the change to review the application 
and make a decision on it. If there are other aspects because 
of other changes in statute that would affect how it could be 
used, we would certainly take those into consideration.
    Senator Alexander. Well, my time is up, but is there 
anything more that you could say to the three of us about, are 
you prepared if we pass the pilot program to do the 
Commission's part to implement it as rapidly as you could in a 
safe and reliable way?
    Mr. Burns. I do not think it is in the budget. We do not 
have funding in the budget or in our request, so that would--
you know, obviously that would have to be addressed. And I have 
to say, just if you would also give us the opportunity to look 
at it, and we could advise you in terms of what it means in 
terms of our processes. What I want to leave you with is, 
again, the basic idea we have the capability to do this kind of 
technical review.
    Senator Alexander. Thank you, Mr. Chairman. Let me go to 
Senator Feinstein. But I will ask staff to work with you and 
your staff to make sure that as we write language for the 
appropriations bill that we write it in a way that takes 
advantage of your technical advice so that we--so that we speed 
things up rather than slow things down.
    Senator Feinstein.
    Senator Feinstein. Well, thanks very much, Mr. Chairman. 
And, Mr. Burns, essentially what you are saying, if I 
understand it, is that there is now a voluntary proposal to 
provide a pilot nuclear waste facility in Texas. And so, there 
could be a place that is voluntary that people wanted if such a 
pilot facility were authorized by law. Is that correct?
    Mr. Burns. That is correct. We expect to get the--an 
application in the near future.
    Senator Feinstein. Good. Good. I am happy to hear that. So 
other than us authorizing it, there is nothing else that is 
necessary from the Federal Government. Is that correct?
    Mr. Burns. As I say, I think in terms of your 
authorization, I think you would need to look--part of that 
would be looking at the Nuclear Waste Policy Act, which I 
presume you would do, in terms of conforming changes. But off 
the top of my head, I cannot think of anything else.
    Senator Feinstein. Here is the thing. Pardon me?
    Senator Alexander. Mr. Baran----
    Senator Feinstein. Oh, sorry, I did not see that. Please.
    Mr. Baran. No problem at all. I would just add, if what is 
contemplated in Texas is consolidated internal storage whereby 
the Department of Energy would contract with that eventual 
applicant to take the spent fuel from various locations around 
the country, then presumably the Department of Energy would 
also need appropriations from Congress to enter into that 
contract with the potential applicant we would have. That is 
not the NRC part of this, but it is a piece of it.
    Senator Feinstein. Right, and I think we understand that, 
so I appreciate your making it clear. That is good.
    Let me--for the past 30 years, it is my understanding that 
you have allowed the licensing of nuclear power plants based on 
the assumption that a permanent disposal site for waste would 
be available within a reasonable timeframe. And as I understand 
it, the Court of Appeals in 2012 required you to consider the 
health and safety impacts of the possibility that a disposal 
site might never be available. Is that correct?
    Mr. Burns. Yes, I think that is correct.
    Senator Feinstein. Okay. And so, the fact remains that the 
NRC in its final rule digressed from 30 years of regulatory 
precedent by allowing licensing actions to proceed without 
concrete plans for a disposal site in the foreseeable future. I 
gather that is correct.
    Mr. Burns. Well, the decision--the decision that was made 
after the court decision--what the court decision said is that 
in the context it faced then, that the earlier so-called waste 
confidence findings that the Agency had made since the late 
1970s or the early 1980s, it would not satisfy. Recall, too, 
that the basic finding with respect to waste confidence or 
continued storage really deals with the Commission's 
environmental review. It is a piece of environmental review for 
individual licensing actions.
    What the Agency did is in the absence of a firm date, if 
you will, for a repository, it looked at the environmental 
impacts of continued storage at sites. And, again, it is not a 
decision that the Agency is making that that is the preferred 
way of going, but looking at it, that the impacts are small and 
did not prevent the continued licensing of facilities. That is 
essentially what it is. And in that decision, we recently acted 
on some petitions related to that position, and I believe we 
are probably going to be taken to court again on that.
    Senator Feinstein. Okay. And the rods now in spent fuels 
that you say are safe essentially forever, I guess, are you 
saying that they are safe for a millennium in spent fuels, and 
that you can predict that there will be no catastrophic earth 
movement, which has characterized planet earth over the 
millenniums? Is that essentially what you are saying?
    Mr. Burns. No. I think what I am saying is that with 
respect to storage, and storage at sites takes into 
consideration site characteristics, various phenomenon, part of 
our looking at, you know, seismic flooding, things like that, 
will take those issues into account. Eventually, spent fuel, it 
does decay. For example, part of the reason to move it is that 
some sites choose and choose fairly early on to move it to 
dry--what we call dry storage is that it no longer needs to be 
in a pool.
    But because of the decay, because of the characteristics of 
it, the staff and the Agency has made the determination it can 
be safely stored. Whether that, again, from a national policy 
perspective is the preferred long-term solution, I am not 
saying that. What, again, I am saying is we have made the 
technical judgment that it is safe as it is.
    Senator Feinstein. Okay, I understand that. My time is up. 
If there is a second round, I will----
    Senator Alexander. There will be as many rounds as you 
would like to have. Senator Murkowski, if I may ask a 
clarifying question. I think I confused an issue. Mr. Chairman, 
is it correct that if this application from West Texas 
materializes, and the Nuclear Regulatory Commission approves 
the application, that that applicant can then begin to receive 
spent fuel from any of the 78 sites around the country without 
any further action by us?
    Mr. Burns. I believe that is correct, and, again, in 
accordance with the terms of the license that would be issued.
    Senator Alexander. So, Senator Feinstein, did you--I was 
confusing--if the Texas application is approved----
    Senator Feinstein. Right.
    Senator Alexander [continuing]. They can go into business--
--
    Senator Feinstein. Good.
    Senator Alexander [continuing]. Without any further 
action----
    Senator Feinstein. Oh, that is good.
    Senator Alexander [continuing]. By us is the way I--is the 
way I understand it.
    Senator Feinstein. Even now without passing the bill?
    Senator Alexander. Even now without passing our bill, 
correct?
    Mr. Burns. That would be my understanding.
    Senator Feinstein. Good.
    Mr. Burns. I would note, for example, that the Agency had 
an application several years ago for a private--it did not--it 
was called private fuel storage. It was in Utah. Ultimately a 
decision was made not to build it. But the Agency licensed--
approved the licensing of that several years ago. It may have 
been a decade ago.
    Senator Alexander. That is important for us to know and 
understand, so if as we go along this afternoon there is a 
different answer to that, let us know. And we will go to 
Senator Murkowski.

                     DOD TESTING AT YUCCA MOUNTAIN

    Senator Murkowski. I wanted to ask about something that has 
come up in the news recently about possible Department of 
Defense interest in conducting some tests at Yucca Mountain. I 
for one have concerns with the possibility that Yucca would be 
used for anything other than the statutory use as a repository 
for the spent nuclear fuel and our high level defense waste. 
Has anyone from DOD been in contact with you at the NRC 
regarding using Yucca Mountain for purposes other than as a 
repository?
    Mr. Burns. I am not aware of that. My executive director 
for operations, the chief officer is shaking his head no. I am 
not aware.
    Senator Murkowski. I am sure you have seen the same story.
    Mr. Burns. My information is what I read, probably the same 
thing you read in the newspaper.

                         SMALL MODULAR REACTORS

    Senator Murkowski. Yes, okay. Well, I am trying to chase 
rumors, so if anybody has more detailed information, I think it 
would be helpful to know.
    I wanted to ask quickly about where we are with SMRs, small 
modular reactors. You have indicated that the Commission is 
preparing to review the license applications. Kind of give me 
some updates. What are the barriers right now, whether 
legislative or regulatory, that could delay approval of the 
SMRs?
    Mr. Burns. Well, we expect--as I said in my opening 
testimony, we expect to receive an application in 2016 from one 
of those who indicated an interest. Some of it has been, 
frankly, changing interest in terms of the market. I think a 
lot of these things are probably outside the NRC's ken in terms 
of what the interest is and potentially buying or procuring it.
    I mean, our staff--what I would say, Senator, is that our 
staff has engaged with those who have indicated interest in the 
technology. We had a paper that came up several years ago, 
actually before I left the NRC in 2012, to address some of the 
issues. I think there are some issues we need to work through, 
but I think we have been responsive in terms of assuring that 
we--both through the licensing process and also regulatory 
criteria.
    And particularly for what we are seeing, which are 
basically light water reactor based, the technology. What I 
have said in some of the public speeches and all, is looking 
down the path, to the extent you get smaller reactors or 
technologies in the non-light water reactor, what we call--
sometimes call generation four reactors, there is some work 
that needs to be done there. DoE has worked cooperatively with 
the industry. We are looking at a report related to that. And I 
think we are open to do that over the next few----
    Senator Murkowski. Does that review also include then the 
export possibility and ensuring that the licensing process will 
make it easier to export our SMRs to other countries? Do you 
consider that?
    Mr. Burns. I might have to come back to you on the record 
for that.
    Senator Murkowski. Okay.
    Mr. Burns. What I would say is generally, and looking at 
the experience we have had with the larger reactor technology, 
for example, the Westinghouse AP1000, General Electric ABWR. We 
have certified those under our rules, and a lot of--the 
countries who have been interested, for example, Japan and 
China, who have built--have been building that technology, they 
often look to our certification to do that.
    So I think the basic subject or perhaps--I was thinking 
about some discussion with our staff. I think the basics there 
for export, the basic construct is there. And what often you 
find is that the NRC's design review is considered a seal of 
approval that is often recognized around the world.

                            COMPLIANCE COSTS

    Senator Murkowski. With my remaining time, I wanted to 
touch on just the cost of compliance with the NRC regulations. 
As we speak to how we are going to move to this nuclear 
renaissance that we once talked about so freely, it is 
seemingly the cost of regulations that is the big barrier to 
market for new nuclear projects. So what aspects of the 
regulatory process can we modernize, can we streamline, can we 
just be more efficient? How can we do a better job with this?
    Mr. Burns. Well, one of the things the Commission started a 
few years ago, again, was an effort nominally called cumulative 
effects of regulation. And it was a way of trying to look at 
the impact as regulations are proposed or developed, and in 
terms of either staging, you know, the significance or the 
value added, if you will. And some of that effort has continued 
in communication with industry, and I think the Commission is 
going to receive a paper or some information from the staff 
later this month or next month that, again, includes comments 
from stakeholders, industry and others.
    One other thing I would do is that--we are trying to do as 
well is we had a GAO report that critiqued the Agency in terms 
of its cost benefit analysis. We might have some disagreements, 
particular areas of disagreement with it. But we are looking at 
that and doing things to improve our cost benefit analysis 
where that is appropriate in the regulatory sphere.
    Ms. Svinicki. Well, Chairman Burns did mention cost benefit 
analysis. Just to put a finer point on that, it had been 
pointed out to NRC that looking retrospectively at things that 
we had put in place and the Agency's own cost estimates for 
what it would cost the regulated community to put them in 
place. We were confronted with data from the industry that 
showed in some cases we were 10 orders of magnitude low. And, 
of course, this gets into an impact's cumulative effect of 
regulation so much because if our analyses of cost benefit are 
not accurate, then we will impose things where, if we had 
better cost estimates, we would find that the benefits do not 
exceed the costs. And so, I think one of the most basic things 
that regulatory agencies can do is to continue to refine and 
improve cost benefit analyses techniques.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Alexander. I wanted to continue along Senator 
Murkowski's questions. I think your--I love the concept of 
cumulative--what did you call it?
    Mr. Burns. Cumulative effects.
    Senator Alexander. Well, that is true. I mean, we know that 
is true. It is just human nature. I mentioned the higher 
education report, Senator Murkowski, that we commissioned. I 
mean, eight reauthorizations to the Higher Education Act since 
1965, eight groups of well-meaning Senators, eight groups of 
well-meaning legislators. Let us try this, let us try that, let 
us try this.
    And Vanderbilt does a study that shows it costs $150 
million in 1 year for that one university to comply with all 
these rules and regulations. They just build up over time, and 
there is no countervailing discipline to remove them, and it 
adds a lot of costs. I mean, in the university case, it is 
$11,000 per student at that university on the tuition costs. So 
that could make a little difference in the ability of an 
operator--of a utility to say, will I extend a nuclear power 
plant license? Will I open one? What will I do?
    Let us take an example of that with the extension of 
nuclear power. We have 99 reactors, is that right, today 
operating?
    Mr. Baran. That is correct, 99 operating.
    Senator Alexander. And about how many of those are licensed 
to operate for 60 years?
    Mr. Baran. About 75.
    Senator Alexander. About 75.
    Mr. Baran. Yes.
    Senator Alexander. And some of the others are newer, so 
they would not yet be licensed. But a large number of those 
will be thinking about going--applying for permission to go for 
80 years. Is that correct?
    Mr. Baran. There is interest in that, yes.
    Senator Alexander. And scientifically or based on what your 
Commission knows, is it true that a reactor can operate safely 
for 80 years?
    Mr. Burns. Again, if the technical criteria are met, I 
think the answer is yes. I think the Commission last year, and 
I might ask my colleagues who were engaged in this issue before 
I returned to the NRC.
    Senator Alexander. But if I am a utility operator, is the 
Commission generally of the disposition that a properly 
maintained reactor who meets the technical requirements should 
be able to operate for 80 years instead of 60 years?
    Mr. Ostendorff. I would just answer very briefly, Senator, 
and maybe Commissioner Svinicki would like to supplement my 
comments, because last year we were the two folks that were 
here that voted on the subsequent license renewable policy 
issue that came to the Commission last summer. And we 
determined that our current regulatory framework without 
modification is structured to allow an applicant to come in to 
ask to operate from 60 to 80 years. We require basically 
utilities to have an aging management program to look at such 
things as buried piping, electrical cables, the impact of 
neutron to radiation, reactor vessels, those types of material 
issues.
    But there can be a showing made, and so far industry has 
done that up to 60 years that they can monitor material 
degradation in a way that ensures safety.
    Senator Alexander. Commissioner.
    Ms. Svinicki. Just at bottom, Mr. Chairman, last year our 
Commission affirmed that our regulatory framework is adequate 
as it exists to evaluate 60 to 80 years. The demonstration will 
have to be made site by site of each applicant that comes in. 
They will have to provide the safety case.
    Senator Alexander. Has anyone yet applied for an 80-year 
license?
    Ms. Svinicki. No, they have not, but industry has indicated 
we might receive the first 60- to 80-year extension in the year 
2018.
    Senator Alexander. Well, here is what I am getting to. If 
it is a legitimate concern of our country that we want lots of 
low cost, reliable carbon free electricity, and if the 99 
reactors provide 60 percent of that today, and if we open five 
and close five in the same year, and if there are a number of 
forces that make it difficult to start big new reactors right 
now, a strategy for the President and the Congress, which might 
be the easiest way to make sure over the next 30 or 40 years 
that we have an adequate supply of reliable, clean, low cost 
electricity free of carbon emissions, would be to make sure 
that we do not have any unnecessary obstacles to a license 
application to go from 60 to 80 years, if that is a safe thing 
to do.
    And that might also be a good time. You just did your 
review about whether your regulatory structure allows that. It 
might be a good time to do a review about whether they are 
unnecessary obstacles in your regulations that would discourage 
utilities from doing that. Without naming names, I was a little 
surprised to learn from one utility executive that they were 
only planning on asking for a 60- to 80-year extension for 30 
percent roughly of their reactors, when, in fact, the other 70 
percent are good solid reactors. Now, there are a whole 
combination of reasons which make that uneconomic. But one of 
the reasons sometimes is the cost of regulations, so that might 
be an area where you could take a look and say it is in the 
public interest to make sure that we create a welcoming 
environment for those applications rather than an adversarial 
environment, and still meet all of your safety objectives.
    My time is up. Senator Feinstein, why don't you take the 
time you would like for your questions, and then I will ask 
some more. Do not feel constrained by any five-minute rule.

                             WASTE STORAGE

    Senator Feinstein. Thank you. I appreciate that. If I 
understand what I have been told, the NRC has made the judgment 
that nuclear waste storage at the site of a reactor is forever 
safe, and that waste need not be moved. How do you expect 
communities to support further license extensions given that 
you are now allowing plant owners to keep waste on site 
indefinitely?
    Mr. Burns. Senator, the issue--I mean, from the regulatory 
standpoint, our job and our responsibility is to call the 
technical shots as we see them. The question I think on local 
support and those are issues that I fully recognize may have 
some concern. Our job is to assure that we have oversight of 
licensees to ensure that they are carrying out requirements 
that apply to spent fuel storage or to safe operation, and 
communicate to the public how we are doing that. That is, I 
think, what we can--that is what we can do, I think.
    Senator Feinstein. See, the problem is you have no way of 
knowing what might happen 200, 300 years from now, no way. I 
can think of a whole host of things that could happen that are 
not predictable. Now, if you only use the predictable, maybe 
you are right. But if you concede that there are things that 
happen that are not predictable, that is another subject. So it 
would seem to me that a public agency would want to protect the 
public above all, and not just the public today or 50 years 
from now, but the public that is forever going to be on 
adjacent land. Anybody want to take that on?
    Mr. Ostendorff. I would like to make a couple of----
    Senator Feinstein. Okay.
    Mr. Ostendorff. Thank you for the opportunity. I want to 
make a couple of comments. One, NRC has not said let that waste 
sit there indefinitely without ever taking a look at it.
    Senator Feinstein. You said----
    Mr. Ostendorff. We have not said leave it there and never 
take a look at it.
    Senator Feinstein. You have said it is safe.
    Mr. Ostendorff. We have said that it is safe and secure, 
but it also subject to ongoing monitoring programs. As one 
example, Senator Feinstein, one of the steps, again, and we are 
not as a Commission an advocate for indefinite storage onsite. 
There are certain responsibilities that the Department of 
Energy has in repository development under the Nuclear Waste 
Policy Act that are their responsibilities, not ours.
    But we have determined that this is fuel that is currently 
stored onsite in dry casks that are on concrete pads. That fuel 
is being stored safely and securely. If repositories were 
delayed in being developed for whatever reason, then there are 
steps that our staff has looked at to look at maybe after 100 
years, there would be a replacement cask brought on board to 
move that fuel that, as the chairman had noted, would have 
undergone significant decay, move that fuel to a new cask. And 
there would be ongoing monitoring steps.
    As far as the other piece, I would tell you that in the 
Fukushima regulatory actions we have required, we have required 
seismic and flooding walk downs and hazard reevaluations. Those 
seismic reevaluations apply to those locations where we are 
storing spent fuel on sites today.
    Senator Feinstein. Well, I can only speak for myself 
representing a big State, highly earthquake prone with big 
reactors. We have not gone to Diablo yet. This really changes 
my support of the nuclear industry because if things are going 
to be built that they are going to be there forever and never 
moved, and subject to--I do not know what the monitoring regime 
would have to be. I do not know what provisions would have to 
be made for a real emergency, how you would move it out, you 
know.
    I do know that the CEO of PG&E has told me that they are 
prepared to move dry casks to a repository. And now you are 
saying, well, you do not need to do that particularly----
    Mr. Ostendorff. Senator, I am not saying we should not do 
that----
    Senator Feinstein. Let me just finish, sir. I would say 
particularly because of earth instability in that area, you 
would want to get the stuff out of there. So this is--I mean, 
it is hard for me to accept that you are saying one size fits 
all, and we believe this is safe. Well, let me go into this SMR 
that your Commissioner said was going to be licensed this year. 
How many SMRs are they, of what size, the new scale 
application?
    Mr. Burns. Well, we have not received the application as 
yet, and they would have to--what they are basically looking 
for, as I recall, is a design certification or design approval 
that you could--this is a design that could be applied. Right 
now, we do not have a particular site that we have been asked 
to license it at.
    Senator Feinstein. We hear that it is four at 40 watts. Did 
you say Idaho? To Idaho. Do you know anything about that?
    Mr. Burns. As I say, at this point, where the particular 
application might be, we do not have an application for the 
particular thing.
    Senator Feinstein. Okay, fair enough. Fair enough.
    Mr. Burns. And we would license it under--in terms of if we 
had a particular application to cite that design at a 
particular site, we take into consideration the natural 
phenomenon, the geology, soil structure, et cetera, that is at 
that site.
    Senator Feinstein. Okay. It is my understanding that these 
are only really cost effective if you can site a number in one 
place. In this case we could be wrong, but the information I 
have received, it would be four--no, it would be six 40-watt 
reactors sited at one place. I think it is on Federal land. 
What would be the requirements for storage, and where would 
they store the waste?
    Mr. Burns. Well, again, like other licensed plants, they 
would, absent a consolidated storage site or absent a 
repository where after the decay of fuel after it is done 
within the reactor, you would be talking about storage at the 
site.
    Senator Feinstein. Would this be underground? What would 
the requirements be? My understanding is it is underground.
    Mr. Burns. I think I have seen some--and I do not know all 
the details of the design. I understand some of the designs for 
the reactors themselves would be underground. I could not tell 
you in terms of I do not know enough, and would be happy to try 
to supplement for the record, what the expectation is with 
respect to, in effect, the spent fuel storage, at least in 
terms of temporary before potentially moving to like a dry 
storage situation. But I just do not know.

             STEAM GENERATORS AT SOUTHERN CALIFORNIA EDISON

    Senator Feinstein. Well, let me just--let me just ask you 
another thing because I am just a lay person, sort of a simple 
soul. At Southern California Edison, what I understand happened 
was not a like-for-like steam generator of one reactor, which 
began to have holes in it, and then the second reactor had the 
same problem. It was a Japanese designed reactor--Japanese 
designed steam generator. The thought was that the alloys in it 
were much more advanced and better to use.
    Do you consider that kind of thing when you approve an 
application as you will, for example, with the SMRs so that 
situations do not happen like what happened to Southern 
California Edison?
    Mr. Burns. Yes. We look at the technical aspects of 
equipment--the major equipment as well as the systems that are 
used to operate the facility. As you indicated, the replacement 
steam generators at San Onofre 2 and 3 had problems. Those were 
things that our inspectors also noticed with it. And from the 
standpoint both of the company making decisions with respect to 
conformance to their license about operability as well as the 
NRC in its oversight with respect to operability. So it is 
something we look at. The design and quality is something we do 
look at.
    Senator Feinstein. Did you approve those steam generators? 
Not you, but did the Commission? Did the Commission----
    Mr. Burns. Well, I think my understanding is that the 
company, Southern California Edison, replaced the steam 
generators under provisions that allow for the exchange of 
equipment. And after that happened, and as you indicate, during 
some operation, they started finding anomalies consistent. And 
consistent with their license and licensing basis, they began 
to address that, identified that the quality was not there. 
Anomaly, as I say, we approve basically systems, and we approve 
the license and the conditions that they operate under.
    Senator Feinstein. Well, in one case I think there was a 
small--very small radioactive leak. This is why I am concerned 
about the underground SMRs. You put everything underground, it 
is pretty hard to get to it if you need to. And you can have 
equipment problems just as much as in a big reactor, it seems 
to me. Am I wrong?
    Mr. Burns. Well, again, what we license to is not that 
facilities will be perfect, that they are--will be perfect in 
every way, that we have to have--the notion of defense in 
depth, that thinking about if certain things go wrong how does 
the machine respond? How do the people who run it respond? How 
do we interact, interdict those potential problems?
    That is part of both the design philosophy and the approach 
both to the regulation and to oversight, because we do not 
license assuming, in effect, a perfect world. We assume that 
there may be things that go wrong, and if there are things that 
go wrong, how do you prevent and basically minimize the 
consequences of that in terms of designs. And that is--that 
carries through not only, I think, really from day one.
    Senator Feinstein. Okay. Nobody----
    Mr. Baran. I have a slightly more succinct version of that. 
I think we do not know yet because we do not have the 
application of what the specific design will be. But if we get 
an application next for a small modular reactor design, if it 
is going to be underground or if it is going to have 
characteristics that are different from any other reactor 
design, or even if it did not have characteristics different 
from other reactor designs, they are going to have to 
demonstrate to the NRC that that design is safe before we 
certify it.

                       SAN ONOFRE DECOMMISSIONING

    Senator Feinstein. Okay. The problem for me, and, again, 
just a simple problem, is that it is all out of sight. Now, I 
know there are technical ways of, I guess, bells ringing and 
that kind of thing, but it is all out of sight. And now, I 
mean, we have 2,200 megawatts going down. It is a huge amount 
of power. And as long as we are on it, Mr. Chairman, can you 
give us your take on where San Onofre is in the decommissioning 
process?
    Mr. Burns. Yes. The company has indicated what its plan is 
for decommissioning. It is going to a plan that over, I think, 
about a 20-year period, I think a little less than a 20-year 
period, they would--basically other than, as we discussed, the 
spent fuel pending removal to a continued or a consolidated 
storage site or repository. What would happen is they plan to 
take apart all the structures over that period.
    Senator Feinstein. They are going to remove the reactors.
    Mr. Burns. They are going to deconstruct the reactor 
buildings. And also, you may recall unit one, which was an 
early plant, is also on that site where they have done some of 
that work. Actually I think they have done a fair amount of 
that work, and then they would complete work that did not make 
sense to do until Units 2 and 3 were decommissioned. So they 
have communicated to the NRC its plans, and they have also made 
some plans in terms of the spent fuel storage on site. I think 
they have opted to use, in effect, instead of the stack that is 
above ground sort of an in-ground storage option, which they 
think has some advantages for them.
    Senator Feinstein. Well, so the only thing that will 
eventually be left for millenniums is the spent fuel.
    Mr. Burns. Well, again, that is assuming that there is 
never a repository built. I do not think that that is going to 
be the case, and you and Senator Alexander----
    Senator Feinstein. That is where we are going. That is 
where we are going. And to me, I mean, this is almost 
diabolical that you leave, you know, six million people in the 
area without the benefit of power, but the spent fuel is there. 
And, you know, I say this respectfully, but I think the 
industry should think about this. I just do not think it is 
right, and that is one of the reasons why I think we have to 
press on and get repositories and get spent fuel. And you have 
questions of what is happening at Hanford. You have got waste 
up in Northern California, and that is just sort of my 
neighborhood, let alone other places.
    And, you know, it reminds me of old mines. I mean, we have 
like 50,000 mine wells that are not covered in the State. 
People can mine and walk off and leave the mess. And I really 
feel that that spent fuel has to have a place to go, so maybe 
it can be early in the line, I do not know. I think this is the 
dilemma for the industry. I do not know how many rods there 
will be, but there are 4,000 of them in spent fuel pools now--
256,000 rods in spent fuel pools, as I understand it 
nationally. And I am told the prudent practice is to leave it 
in for five to seven years, and then move it to dry casks.
    And are you saying--I do not know, but are you saying in 
your rule that you can leave it forever in a spent fuel pool, 
or are you saying you should observe that five to seven years 
and move it to dry cask storage?
    Mr. Burns. Well, again, my understanding of the physical 
and the attributes of it is that you want it in a spent fuel 
pool for a certain number of years because the environment 
there assures against criticality and et cetera. Part of the 
reason utilities have moved to dry storage is you do not need 
the wet--in effect, the wet storage after that period of time. 
That is why you hear this term ``five to seven years.''
    Senator Feinstein. Five to seven years.
    Mr. Burns. Five to seven years. And my guess it is also, 
from their standpoint, and I think you understand that as well. 
If you are having to deal with a longer-term storage, it may be 
more economical for them to dry storage as well. But 
essentially what you want is for this first years after it 
comes out of the reactor, in effect, until it cools in terms of 
its radioactivity. You keep it in the wet pool, and then you 
can move it to dry storage.

                        DRY CASK STORAGE SAFETY

    Senator Feinstein. Well, let me ask you this. Is dry cask 
storage safer than spent fuel pool storage?
    Mr. Burns. I am not sure whether it is particularly safer. 
I think it has advantages over it. I think we have determined 
particularly--you know, particularly if you are looking at this 
window of time, you need to keep it in wet storage. I think 
there are advantages moving it to dry storage. It is, you know, 
fairly, I think, easily monitored. You know, you are concerned 
obviously with natural phenomena, but we have evaluated the 
equipment. We have evaluated the equipment against earthquake, 
you know, what happens in terms of the seismicity in a 
particular site against tornado missiles. In other words, you 
get a tornado moving through, things running out.
    So we evaluate the storage options against that. And as you 
say, it is an option many utilities have chosen to do because 
it is a safe option, and my guess is, from their standpoint, an 
economic option.

                       POTENTIAL TERRORIST THREAT

    Senator Feinstein. Well, let me ask you. Do you evaluate a 
potential terrorist attack on the facility?
    Mr. Burns. I believe we--I believe we have, and at least 
from the standpoint of what can you--what can you do. So my 
understanding is that we have done that, yes.
    Mr. Ostendorff. Yes. If I may, Senator, that is a very good 
question on terrorist attack. Certainly there are a couple of 
things. After 9/11, our predecessors on the Commission required 
an aircraft impact rule for new reactors, and it was called 
B.5.b firefighting explosion type mitigation strategies for 
existing reactors. That was new after 9/11.
    With respect to--on an ongoing basis, we have exercises to 
evaluate the ability of a nuclear power plant to withstand a 
terrorist attack. I participated as a commissioner just last 
May in a hostile action based scenario at Diablo Canyon to look 
at a terrorist activity. How could the onsite security forces 
counter this terrorist attack? So we have a fairly 
sophisticated program in that area. We are glad to provide 
other briefings to you.
    If I could very quickly, you had asked a question earlier. 
I do not think we fully answered your question about the Idaho 
situation for small modular reactors. The new-scale concept, 
which Chairman Burns talked about, which we may receive a 
license application in 2016, would be for a number--the concept 
would be 45 megawatt reactors, perhaps four of those clustered 
as one group of four reactors. These would be underground 
designed theoretically to replace coal plants that would be 
retired.
    The underground concept has advantages from a security 
standpoint from the avoidance of missile hazards. So I just 
wanted to make sure that we provide that information to you, 
and we can provide more.
    Senator Feinstein. Thank you. I appreciate that. Thank you 
very much. Thank you, Mr. Chairman.

                             YUCCA MOUNTAIN

    Senator Alexander. No, thank you, Senator Feinstein. Very 
interesting questions. Mr. Chairman, I think you have testified 
that you are doing everything the courts ordered you to do in 
terms of proceeding towards completing Yucca Mountain, correct?
    Mr. Burns. Correct.
    Senator Alexander. And is it true that if Yucca Mountain 
were open, we could take all of the casks, all of the used fuel 
out of California and Tennessee and everywhere else? We have 
the 78 sites, and it could all be contained in Yucca Mountain?
    Mr. Burns. As you alluded in your opening statement, Mr. 
Chairman, I am not sure if you took all the spent fuel 
currently--that currently exists that would be ready to be put 
in a repository, that it would all fit in the Yucca site. 
Frankly, I do not know the answer.
    Senator Alexander. A lot of it would.
    Mr. Burns. Well, yes.

                         NUCLEAR REACTOR SAFETY

    Senator Alexander. I have been told all of it would, but 
maybe a lot of it would or most of it would, but that is the 
obvious way to me to get rid of it. I mean, for 25 years that 
has been the law. We are told often, ``pay attention to 
science.'' Science has now told us it is safe. You are doing an 
environmental review. There are several other steps you need to 
take, but if we want to get this fuel off these sites, that is 
one way to do it.
    Now, let me ask Mr. Ostendorff a couple of questions. The 
Commission has held that used fuel can be safely stored on the 
sites where it is produced, correct?
    Mr. Ostendorff. Yes, sir.
    Senator Alexander. And they have said it is safe whether it 
is in pools or in dry storage.
    Mr. Ostendorff. That is correct. And if I could, Senator, 
last year--actually in 2013 our staff did a study on the spent 
fuel pool looking at resilience against earthquakes, looking at 
the experience in Japan, looking at what we understand about 
spent fuel pool structures in this country. And we determined 
that there is not a need from a safety standpoint to more 
quickly move fuel from spent fuel pools to the dry casks.
    Senator Alexander. But you are not saying that utilities 
should not move it.
    Mr. Ostendorff. No, sir.
    Senator Alexander. You are just saying you have asked the 
question whether it is safe or not, that based on scientific 
standards it is safe.
    Mr. Ostendorff. Yes, sir.
    Senator Alexander. Now, you have a lot of experience with 
reactors having served in the Navy. We have had Navy reactors 
for, what 60 years?
    Mr. Ostendorff. Since 1954.
    Senator Alexander. Yes. How many deaths have we ever had a 
result of the operation of a Navy reactor?
    Mr. Ostendorff. None.
    Senator Alexander. How many deaths have we ever had in the 
United States as a result of the operation of a commercial 
reactor?
    Mr. Ostendorff. None.
    Senator Alexander. How many people were hurt at Three Mile 
Island, which is the most celebrated nuclear accident we have 
had?
    Mr. Ostendorff. None.
    Senator Alexander. Does any other form of energy production 
in the United States have that sort of safety record?
    Mr. Ostendorff. I cannot speak to solar or wind, but I 
would say that with respect to oil, gas, coal, it is my 
understanding that nuclear has a better safety record.
    Senator Alexander. Yes. Golden eagles do not like the 
safety record of windmills. I know that.
    But the fact is that no form of energy production in the 
world really has a safety record that exceeds the production of 
nuclear power in the United States, and I think it is important 
that we emphasize that. And as far as finding a place to put 
the waste, I mean, the problem with that is not you. It is us.
    It is the politicians who are keeping Yucca Mountain shut, 
and it is the politicians who are not opening new consolidated 
repositories, as Senator Feinstein and I have proposed for the 
last 3 years. If Congress would act on that and the President 
would sign it, why I am sure that the first priority would be 
sites where plants are closed, such as those in California, and 
to move the stuff off there.
    So I think, we ought to look in the mirror when the time 
comes about--it is not the industry saying to us they would 
like to keep it there. They would like to get rid of it. The 
industry is collecting money--$35 billion from rate payers--and 
it is not being used for the purposes being collected. We've 
got electric bills all over the country that are too high. 
We've got concerns from Senators like Senator Feinstein about 
unused fuel in her State. But the obstacles here are the United 
States Congress and the President of the United States. That is 
us.
    So I think it is very important for us to----
    Senator Feinstein. It is not you, and it is not me.

                               FUKUSHIMA

    Senator Alexander. No, but it is some people we know, but 
we are working on that. Now, I have just a few more--I want to 
underscore that. And let me go to Fukushima. Fukushima was a 
terrible problem from a very simple cause. Mr. Ostendorff, the 
problem at Fukushima was a very simple problem, was it not? I 
mean, power failed, and there was no water to cool the reactor.
    Mr. Ostendorff. Yes, sir.
    Senator Alexander. That was it, right?
    Mr. Ostendorff. Caused by a very significant tsunami 
resulting from the earthquake.
    Senator Alexander. But the only problem----
    Senator Feinstein. Caused by siting them so close together, 
you know, where they were sited.
    Senator Alexander. But the bottom line is the only problem 
you need to solve is you need water to cool the reactor, and 
you need the power to pump the water. And I was at Watts Bar 2, 
which is being opened in Tennessee, and they are taking action 
based upon the rules that you have provided. They have got a 
variety of ways to have power to pump the water in the event of 
almost anything, and I do not think there is a terrorist 
anywhere that could get into that building that they have got 
that houses those redundant steps.
    So based on what I have seen so far, at least at that site, 
and what I have reviewed, you are taking steps to learn even 
from the Fukushima incident. You are focused on trying to make 
sure that all of our sites, you have got power to pump the 
water to cool the reactors. Is that correct?
    Mr. Ostendorff. Yes, sir, and 3 years ago, and Commissioner 
Svinicki joined me in this when we were working together 
because other commissioners had departed. But basically in 
early 2012, we approved orders to require mitigating strategies 
to deal exactly with the issues you are talking about: 
additional cables to run power, additional pumps, portable 
diesel generators, portable pumps, other ways of providing 
makeup water.

                              WATTS BAR II

    Senator Alexander. Now that I have wandered back to 
Tennessee a little bit, what is left to do before the Nuclear 
Regulatory Commission can approve the operating license in 
Watts Bar 2?
    Mr. Burns. Senator, we expect a report from our staff that 
would come this spring, April-May timeframe. I think the 
Tennessee Valley Authority has projected a June fuel load date. 
We would need to make a decision on the staff's final 
recommendation with respect to the licensing.
    Senator Alexander. But if the staff's final recommendation 
were positive, could the reactor start and power be generated 
during 2015?
    Mr. Burns. That is possible. That depends on their testing 
program, you know, their fuel loading and their testing 
program. And forgive me, Senator, I do not recall exactly what 
TVA's, you know, planning schedule is at, but I think it is 
towards the end of 2015.
    Senator Alexander. Do you have sufficient resources at the 
Commission to complete the licensing activities for Watts Bar 
II this year?
    Mr. Burns. Yes, we do.

           COLLEGIALITY AT THE NUCLEAR REGULATORY COMMISSION

    Senator Alexander. I have one last question. I used to be 
on another committee, which was the Energy and Public Works 
Committee. That was the last time I saw the whole Commission at 
once. Two of you were there, Commissioner Ostendorff, 
Commissioner Svinicki. It was a very unusual hearing because at 
the time, collegiality was not a word that was being used at 
the Nuclear Regulatory Commission. There was an enormous lack 
of it.
    Let me ask the two of you since you have been there for a 
while. What about collegiality at the Nuclear Regulatory 
Commission? We were concerned in the Senate a few years ago 
that the absence of that was causing operational problems. What 
is it like today?
    Mr. Ostendorff. I would add, Senator, that we had a very 
challenging hearing before unit colleagues in December of 2011. 
I would say that once we had a collegiality issue that was 
related to, from my personal view, to one individual who is no 
longer on the Commission. When that individual--when Allison 
Macfarlane came in as chairman in July of 2012, those issues 
went away. And I would say since that time period we have had 
an extraordinarily positive collegial relationship amongst us, 
and there is not any issues at all.
    Senator Alexander. Commissioner Svinicki, what do you 
think?
    Ms. Svinicki. Well, I would note much as we have seen a 
demonstration from the dais today that there is collegiality of 
a body, and then there is collegiality between individual 
members, I would say that even in some of the difficult periods 
on this Commission, there has been tremendous one-on-one 
collegiality. And I think the proof of that is in the fact that 
the Commission's work and the Agency's work, I think, did not 
suffer, and our important mission was always paramount amongst 
the Commission.
    And I think I credit also the Agency staff for not being 
distracted by issues that were occurring at the Agency level. 
At no time did I feel that our mission of protecting public 
health and safety was in any way compromised, but it is 
wonderful to have the colleagues that I have around me today. 
Thank you.
    Senator Alexander. Well, thank you. And, Mr. Chairman, I 
would say that when the Senate functions, which it occasionally 
does, it does so because of collegiality such as that exists 
between the Senator from California and me. It makes life a lot 
easier for everybody. And your functioning is essentially 
important to this country.
    I welcome you as chairman. Your background in France really 
should provide you with a good perspective of how that country 
operates nuclear power and lessons we might learn from there. 
And just as one Senator, I want to help create an environment 
in which you can succeed. I would like to encourage you to 
proceed with your review of the cumulatively piling up of 
regulations without any embarrassment because it happens to 
every single agency, and there should be a disciplined approach 
toward doing that.
    I hope that you will take a look at the importance to this 
country of the license extensions for reactors that want to go 
from 60 to 80 years. That is the easiest, least expensive, most 
important way to get carbon-free electricity from carbon-free 
emissions, at least during this bridge period of time while we 
decide what else we need to do. And I think it is appropriate 
that you think about reducing your budget since the large 
number of applications that might have been expected a few 
years ago is less than expected.
    I hope you will continue to be open to the small reactor 
application when it comes. And I think Senator Feinstein, I can 
speak for her on this I know. I am especially interested in the 
application from West Texas or from anywhere else like that 
because since--if you approve the application, that repository 
can go into operation and begin to receive used fuel from sites 
around the country. And if there were one or two of those, that 
could happen even before our pilot project passes and becomes 
law. If it does become law, which we hope it does, we hope you 
will help us implement it as rapidly as we can because we both 
want nuclear waste property stored in this country as we know 
you do.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein, do you have anything else you would like 
to add?
    Senator Feinstein. I do not, except thank you, lady and 
gentlemen, for being so game and answering these questions, and 
I hope you accept it as a positive challenge. So thank you very 
much for being here.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Stephen G. Burns
             Questions Submitted by Senator James Lankford
    Question. The rules governing the Commission allowed for a former 
Chairman to keep his fellow commissioners poorly informed and pursue a 
personal agenda without ever, technically, breaking laws or procedures. 
What has the NRC done, if anything, to prevent such an abuse in the 
future?
    Answer. The existing laws governing the Commission provide a 
framework for effective agency governance by a collegial Commission. 
Section 201 of the Energy Reorganization Act of 1974 provides that each 
member of the Commission shall have full access to all information 
related to the performance of his or her duties and responsibilities. 
Further, Section 2(c) of the Reorganization Plan No. 1 of 1980 provides 
that the Chairman is responsible ``for insuring that the Commission is 
fully and currently informed about matters within its functions.''
    The Commission's internal procedures have been updated in recent 
years and set forth the procedures governing the conduct of business by 
the Commission consistent with these legal requirements. The specific 
procedures may be changed or waived by a majority of the Commission, 
and questions regarding implementation and interpretation are decided 
by the Commission as a collegial body, consistent with existing law. 
The internal procedures are periodically reviewed by the Commission and 
approved by majority vote.
    Question. Senator Vitter and Representative Terry have proposed 
codifying organizational operation procedures for the Commission, which 
include explicitly making the Chairman responsible for keeping the 
other Commissioners fully informed ``about matters within the functions 
of the Commission''. If a majority of the other Commissioners determine 
the Chairman has not been acting appropriately, this legislation would 
provide a way to report that and allow Congress to evaluate whether a 
change in leadership is needed. Would such a policy safeguard against 
future abuses? If this type of policy is not needed, how can the 
American public and the regulated community be assured that one member 
of the Commission is not legally able to drive the agenda without 
informed consent of the other Commissioners?
    Answer. As discussed above, the law currently requires the Chairman 
and the Executive Director for Operations, through the Chairman, to 
keep the Commissioners fully and currently informed about matters 
within their functions. Further, each Commissioner is required to have 
full access to all information relating to the performance of his or 
her duties. In this context, the Chairman is also ``governed by the 
general policies of the Commission, and by such regulatory decisions, 
findings, and determinations  . . .  as the Commission may by law, 
including this Plan, be authorized to make.'' The internal Commission 
procedures reflect these provisions. In addition, the Consolidated and 
Further Continuing Appropriations Act, 2015 (Public Law 113-235) 
established a requirement that the NRC Chairman inform the Commission 
and the Congress should he or she begin performing functions under the 
emergency authority provided for in section 3 of Reorganization Plan 
No. 1 of 1980.
    Question. With regard to the power reactor fees, the NRC takes the 
amount of fees to be recovered and simply divides by the number of 
reactors. In light of the reductions to the number of reactors--four 
have gone offline in the past 2 years, with another one slated to go 
offline soon--has the Commission revisited how they collect fees?
    Answer. The agency has considered how fees are assessed to reactor 
licensees. The NRC calculates the 10 CFR Part 171 annual fee based upon 
the requirement of the Omnibus Budget Reconciliation Act of 1990 (OBRA-
90), to fairly and equitably collect fees in order to recover 
approximately 90 percent of the agency's budget authority. The budgeted 
resources for power reactors constitute approximately 86 percent of the 
NRC's overall recoverable fee budget. The current methodology is used, 
in part, to provide industry with a predictable annual fee cost while 
also implementing the agency's responsibility to equitably assess fees. 
Additionally, the NRC publishes its proposed fee rule annually, taking 
public comment before issuing its final rule.
    Question. Is the Commission concerned that with the competition of 
other relatively cheap power sources, such as natural gas, this rather 
arbitrary increase in fees is encouraging nuclear plants to close 
sooner than they otherwise would?
    Answer. While the Commission is aware of the economic pressures 
resulting from competition in the energy sector generally, the 
Commission's role as a regulator is to ensure that the Nation's nuclear 
plants operate safely, consistent with the agency's health and safety 
mission. The NRC formulates its budget based on estimates of the 
activities that will be required to license and regulate safe and 
secure use of nuclear materials during the year of execution. The 
agency is concerned with carrying out its mission in the most efficient 
way possible and is continually engaged in identifying how to fulfill 
that mission with the appropriate level of resources.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
    Question. As you know, the nuclear plant operator, NextEra, has 
applied to renew its operating license for the Seabrook Station in 
Seabrook, New Hampshire for an additional 20 years. Their current 
license expires in 2030, which means if approved, Seabrook will have a 
license to operate until 2050.
    Seabrook Station has, however, encountered concrete degradation 
issues due to alkali--silica reaction (ASR). Throughout the re-
application process NextEra has taken actions to understand and monitor 
the extent of the plant's concrete degradation; however, I have heard 
concerns from constituents about the testing being conducted to test 
the long-term impacts of ASR, and I want to make certain it is being 
conducted in a way that ensures precise results about the plant's 
structural integrity.
    For example, it is my understanding that NextEra is using a 
combined crack indexing (CCI) measurement as the primary criterion for 
assessing the progression of ASR. However, I have also heard that steel 
reinforcement bars embedded in the building structure may reduce the 
growth in the width of the cracks in the concrete. Moreover, in the 
August 9, 2013 inspection report, NRC noted inconsistencies found in 
tests at Seabrook between NextEra's CCI results and other measures of 
concrete expansion due to ASR.
    Given these variances in measurement, can you please explain NRC's 
determination process to allow CCI testing as opposed to any other, 
generally accepted methods of assessment to quantify the progression of 
ASR?
    Answer. In its license renewal application for Seabrook Station, 
NextEra has proposed combined crack indexing as a method for assessing 
the progression of alkali-silica reaction. However, the NRC is still 
reviewing this proposal.
    As part of the ongoing review, the staff issued requests for 
additional information noting that it is not clear how combined crack 
indexing accurately correlates cracking due to alkali-silica reaction 
to structural degradation of affected structures. The requests for 
additional information ask the licensee to ``(1) demonstrate the 
adequacy of the parameters [cracking] proposed to be monitored or 
inspected by the program to manage the effects of aging due to alkali-
silica reaction; and (2) clearly establish the link between the 
parameters that will be monitored and how monitoring these parameters 
will ensure adequate aging management such that the intended function 
will be maintained during the period of extended operation.'' The 
licensee is currently expected to respond to these requests in June 
2015. The staff will evaluate the responses against guidance and 
industry standards to ensure that the proposed monitoring program is 
adequate to detect alkali-silica reaction and to properly correlate 
alkali-silica reaction progression with structural degradation.
    Question. I also understand that NextEra has commissioned replica 
studies at the University of Texas in order to determine the long-term 
effects of ASR on the power plant walls. However, I have heard concerns 
that the concrete materials used in the study do not precisely mimic 
the environmental conditions of the Seacoast region or the materials 
used to build the Seabrook plant. Can you describe the Commission's 
involvement in the replica studies and what the NRC is doing to ensure 
the efficacy of the testing?
    Answer. The NRC staff continues to monitor NextEra's testing 
activities at the University of Texas as part of our oversight of 
Seabrook Station, including conducting multiple inspections of these 
activities. The inspections focused on how information gathered from 
NextEra's test program is considered for applicability to the current 
conclusions regarding alkali-silica reaction-affected structures at 
Seabrook Station. While NextEra chose to conduct a large-scale testing 
program at the University of Texas as a possible basis for developing 
future actions to address the alkali-silica reaction issue, the NRC has 
neither directed nor approved this test program. If the licensee 
determines that future test results provide a technical basis to 
resolve this non-conforming condition, the NRC would expect NextEra to 
provide the results to the agency for our review and approval. Any 
submittal by NextEra would need to demonstrate that the test program 
and results accurately reflect conditions at the Seabrook Station.
                                 ______
                                 
              Question Submitted to William C. Ostendorff
              Question Submitted by Senator James Lankford
    Question. Has anything materially changed regarding the volume and 
quality of communication between the Chairman's office and your own 
since 2010?
    Answer. Yes. Since Chairman Macfarlane's arrival in July 2012, the 
challenges we had as a Commission with the previous Chairman have gone 
away. We are operating in an independent, impartial, collegial, and 
professional manner and in accordance with the Commission's legal 
obligations. This environment has continued with the arrival of 
Commissioner Baran and Chairman Burns.

                          SUBCOMMITTEE RECESS

    Senator Alexander. Thank you. The hearing is adjourned.
    Mr. Burns. Thank you.
    [Whereupon, at 4:24 p.m., Wednesday, March 4, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
